<html>
<title> - WOUNDED ARMY GUARD AND RESERVE FORCES: INCREASING THE CAPACITY TO CARE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 WOUNDED ARMY GUARD AND RESERVE FORCES: INCREASING THE CAPACITY TO CARE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 17, 2005

                               __________

                            Serial No. 109-4

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-085                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 17, 2005................................     1
Statement of:
    Embrey, Ellen, Deputy Assistant Secretary of Defense for 
      Employment Health, Department of Defense; Daniel Denning, 
      Acting Assistant Secretary of the Army, Manpower and 
      Reserve Affairs, accompanied by Lieutenant General Roger 
      Schultz, Director, Army National Guard; Lieutenant General 
      Franklin L. Hagenbeck, Deputy Chief of Staff, G-1, U.S. 
      Army; Lieutenant General Kevin C. Kiley, M.D., U.S. Army 
      Surgeon General; Major General Charles Wilson, Deputy 
      Commander, U.S. Army Reserve Command; and Philip E. 
      Sakowitz, Jr., Deputy Director, U.S. Army Installations 
      Management Agency..........................................   144
        Denning, Daniel..........................................   160
        Embrey, Ellen............................................   144
        Hagenbeck, Lieutenant General Franklin L.................   169
        Kiley, Lieutenant General Kevin C., M.D..................   181
        Sakowitz, Philip E., Jr..................................   194
        Wilson, Major General Charles............................   187
    Kutz, Gregory D., Director, Financial Management and 
      Assurance, U.S. Government Accountability Office; Brigadier 
      General Raymond C. Byrne, Jr., Acting State Adjutant 
      General, State of Oregon, accompanied by Colonel Doug 
      Eliason, M.D.; Sergeant First Class John Allen, B/3/20th 
      Special Forces Group, North Carolina National Guard; 
      Sergeant Joseph Perez, 72nd Military Police Co., Nevada 
      National Guard; Chief Warrant Officer Rodger L. 
      Shuttleworth, Chief, Reserve Component Personnel Support 
      Services Branch, Army Human Resources Command, Maryland 
      National Guardsman, accompanied by Chief Warrant Officer 
      Laura Lindle; and Master Sergeant Daniel Forney, Reserve 
      Component liaison, Medical Hold, Walter Reed Medical 
      Center, U.S. Army Reservist, Pennsylvania..................    35
        Allen, Sergeant First Class John.........................    73
        Byrne, Brigadier General Raymond C., Jr..................    54
        Forney, Master Sergeant Daniel...........................   123
        Kutz, Gregory D..........................................    35
        Perez, Sergeant Joseph...................................    98
        Shuttleworth, Chief Warrant Officer Rodger L.............   112
Letters, statements, etc., submitted for the record by:
    Allen, Sergeant First Class John, B/3/20th Special Forces 
      Group, North Carolina National Guard, prepared statement of    79
    Byrne, Brigadier General Raymond C., Jr., Acting State 
      Adjutant General, State of Oregon, prepared statement of...    56
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    25
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Denning, Daniel, Acting Assistant Secretary of the Army, 
      Manpower and Reserve Affairs, prepared statement of........   162
    Embrey, Ellen, Deputy Assistant Secretary of Defense for 
      Employment Health, Department of Defense, prepared 
      statement of...............................................   146
    Forney, Master Sergeant Daniel, Reserve Component liaison, 
      Medical Hold, Walter Reed Medical Center, U.S. Army 
      Reservist, Pennsylvania, prepared statement of.............   125
    Hagenbeck, Lieutenant General Franklin L., Deputy Chief of 
      Staff, G-1, U.S. Army, prepared statement of...............   171
    Higgins, Hon. Brian, a Representative in Congress from the 
      State of New York, prepared statement of...................   218
    Kiley, Lieutenant General Kevin C., M.D., U.S. Army Surgeon 
      General, prepared statement of.............................   182
    Kutz, Gregory D., Director, Financial Management and 
      Assurance, U.S. Government Accountability Office, prepared 
      statement of...............................................    37
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............   216
    Perez, Sergeant Joseph, 72nd Military Police Co., Nevada 
      National Guard, prepared statement of......................   104
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    31
    Sakowitz, Philip E., Jr., Deputy Director, U.S. Army 
      Installations Management Agency, prepared statement of.....   196
    Shuttleworth, Chief Warrant Officer Rodger L., Chief, Reserve 
      Component Personnel Support Services Branch, Army Human 
      Resources Command, Maryland National Guardsman, prepared 
      statement of...............................................   116
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Minority report..........................................    10
        Prepared statement of....................................    19
    Wilson, Major General Charles, Deputy Commander, U.S. Army 
      Reserve Command, prepared statement of.....................   188

 
 WOUNDED ARMY GUARD AND RESERVE FORCES: INCREASING THE CAPACITY TO CARE

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, 
Gutknecht, Miller, Porter, Marchant, McHenry, Dent, Foxx, 
Waxman, Cummings, Davis of Illinois, Clay, Watson, Lynch, Van 
Hollen, Ruppersberger, Higgins, and Norton.
    Staff present: Jennifer Safavian, chief counsel for 
oversight and investigations; Rob White, press secretary; Drew 
Crockett, deputy director of communications; Grace Washbourne 
and Brien Beattie, professional staff members; Teresa Austin, 
chief clerk; Sarah D'Orsie, deputy clerk; Kristina Sherry, 
legislative correspondent; Roody Cole, GAO detailee; Phil 
Barnett, minority staff director; Andrew Su, minority 
professional staff member; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Good morning. A quorum being present, 
the committee will come to order.
    I want to welcome everybody to today's hearings on the 
effectiveness and efficiency of Army medical administrative 
processes that affect the care of injured Army Guard and 
Reserve forces.
    This hearing is the third in our continuing investigation 
into the Department of Defense's administrative and management 
challenges created by the largest mobilization of Reserve 
Component soldiers since World War II.
    For the last year, along with the Government Accountability 
Office, our committee has been investigating the plight of 
injured Army Guard and Reserve soldiers seeking quality care, 
standardized medical and personnel assistance, and 
comprehensive service. We are here today to ask some basic but 
troubling questions.
    How is it that so many injured and Reserve soldiers have 
been inappropriately removed from active duty status in the 
automated systems that control pay and access to medical care?
    Why do soldiers languish for weeks or months in medical 
holding companies, not because of medical care but because of 
lags in efficient administrative processing?
    Why do we all continue to hear from our Reserve Component 
constituents and their families still struggling under the 
convoluted current system?
    Today the GAO will issue a report on their examination of 
two Army processes: active duty medical extensions [ADMEs], and 
medical retention processing [MRPs]. The committee, looking 
into the Medical Evaluation Board and Physical Evaluation Board 
processes, has reached similar findings that are, quite 
frankly, stunning in scope.
    Current Army guidance for processing injured Guard and 
Reserve does not clearly define organizational responsibilities 
or performance standards. The Army has not adequately educated 
Reserve Component soldiers about Army medical and personnel 
processing or adequately trained Army personnel responsible for 
helping soldiers.
    The Army lacks an integrated medical and personnel system 
to provide visibility over injured or ill Reserve Component 
soldiers, and as a result sometimes actually loses track of 
these soldiers and where they are in the process.
    Last, and certainly not least, the Army lacks 
compassionate, customer friendly service. Frankly, I am 
appalled that these men and women not only have had to face the 
recovery from their war wounds, but are simultaneously forced 
to navigate a confusing and seemingly uncaring system of 
benefits.
    What are the effects of these inadequacies? We will listen 
today to the individual experiences of two Guardsmen whose 
stories will be hard for us to hear. Sergeant John Allen of the 
North Carolina National Guard and Sergeant Joseph Perez of the 
Nevada National Guard will illustrate the price of an Army 
unprepared to handle their needs.
    General Raymond Byrne, the State Adjutant General of 
Oregon, is also here on behalf of his injured and ill 
Guardsmen.
    We are also pleased to have with us today two individuals 
who are on the front lines of caring for Reserve Component 
soldiers and who will explain the difficulties executing Army 
regulations and policies. An officer from U.S. Human Resource 
Command will relate the Army's growing pains as it attempts to 
improve its level of administrative service and care. One will 
tell about his experience as a Reserve liaison at Walter Reed 
Medical Center and the challenges he still faces as he tries to 
help injured Reserve soldiers. Both soldiers have been at their 
posts since the first return of injured Guard and Reserve 
soldiers from Operation Enduring Freedom, and both will 
describe urgent needs that are still unmet.
    Certainly, the unprecedented number of Army Guard and 
Reserves mobilized in the war on terrorism has severely taxed 
the Army and its resources. We understand the pressures they 
are under. To their credit, Army leadership has accepted these 
challenges and has come a long way this past year in trying to 
repair some of the problems we are addressing today.
    From our distinguished second panel we will hear of new 
management initiatives, increased personnel, enhanced training, 
and a new interconnectivity between medical and personnel 
tracking systems. We will hear of the hopes for vast 
improvement in Reserve Component administration and service 
under the community-based health care initiative. We hope to 
hear of a continued commitment to other major changes that 
address weaknesses that are still at hand.
    Today when we ask who in the Army or the Department of 
Defense is ultimately responsible for the oversight of injured 
Army Guard and Reserve soldiers and the commands and agencies 
providing them care and service, I hope to get a clear answer. 
But the truth is we are all accountable to the men and the 
women who have been injured defending this country. I am sure 
we will listen closely to each witness this morning to better 
understand what we can do to assist in any way possible, 
including legislation, resources, and ongoing oversight.
    We all look forward to the day when each and every injured 
Army Guard and Reserve soldier receives the care that they have 
earned and that they deserve. This distressing period where we 
have witnessed the equivalent of financial and medical friendly 
fire must end.
    [The prepared statement of Chairman Tom Davis follows:]


    [GRAPHIC] [TIFF OMITTED] T0085.001
    
    [GRAPHIC] [TIFF OMITTED] T0085.002
    
    [GRAPHIC] [TIFF OMITTED] T0085.003
    
    [GRAPHIC] [TIFF OMITTED] T0085.004
    
    [GRAPHIC] [TIFF OMITTED] T0085.005
    
    Chairman Tom Davis. I now yield to our ranking member, Mr. 
Waxman, for his opening statement.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I want to thank you for holding this hearing. This is an 
important hearing, and I especially want to thank our witnesses 
who have come today.
    What we are going to hear about and what this committee 
will shine a light on is the egregious mistreatment--it is 
inexcusable--that wounded National Guard and Army Reserve 
soldiers face. I want to mention the fact that the soldiers and 
their families who are here with us today deserve praise for 
their bravery, and especially for speaking out on behalf of 
their fellow soldiers. I thank you for being here.
    Today we are going to hear about the inadequate care that 
wounded National Guard and Army Reserve receive. Tens of 
thousands of these Reservists have been called to duty with 
little notice. They have left their jobs, they have left their 
homes, they have served honorably far away from their family 
and loved ones, and, unfortunately for many Army Guard and Army 
Reserve soldiers wounded in action, the real battle begins when 
they arrive home.
    Let me be blunt. The way the administration is treating 
wounded soldiers and veterans is a disgrace. As my staff has 
found in a series of reports, veterans across the country are 
routinely forced to wait months just to schedule a medical 
appointment. And when a veteran is severely injured, he or she 
has to wait months without any income before the Veterans 
Administration will process his or her disability claim.
    While we looked into the complaints that my office was 
receiving, we found that there were 10,000 veterans in Los 
Angeles, alone, waiting to have their disability claims 
processed last year. This was a huge increase from just the 
year before.
    And the problems are only going to get worse. The number of 
veterans who will need medical care will increase 5 percent 
next year, but the President's latest budget actually proposes 
a decrease in real funding for VA health care. To make up the 
difference, the President proposes large increases in 
copayments and deductibles that will force hundreds of 
thousands of veterans to lose their VA health care.
    Over the last year, I have released several reports 
documenting these problems. I would like, Mr. Chairman, to have 
the report made part of the hearing record.
    Chairman Tom Davis. Without objection, the report will be 
put in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.006
    
    [GRAPHIC] [TIFF OMITTED] T0085.007
    
    [GRAPHIC] [TIFF OMITTED] T0085.008
    
    [GRAPHIC] [TIFF OMITTED] T0085.009
    
    [GRAPHIC] [TIFF OMITTED] T0085.010
    
    [GRAPHIC] [TIFF OMITTED] T0085.011
    
    [GRAPHIC] [TIFF OMITTED] T0085.012
    
    [GRAPHIC] [TIFF OMITTED] T0085.013
    
    Mr. Waxman. Today we are going to learn about the plight 
that wounded National Guard and Army Reserve soldiers face when 
they return home. Wounded regular duty troops are sent to 
medical facilities at their home bases when they leave Iraq or 
Afghanistan, but many wounded National Guard soldiers are 
placed in what is called medical hold status. As we will learn, 
these soldiers are sent to shoddy, dilapidated bunkers far from 
their home bases where they face long delays to receive medical 
appointments and treatment, and they confront a labyrinth of 
forms to fill out and offices to visit just to receive the care 
and benefits due them.
    These soldiers have risked their lives for us, and they are 
returning home with severe and sometimes incapacitating 
injuries, yet the administration continues to neglect their 
health care and delay their benefits.
    Mr. Chairman, I hope this hearing will be a step toward 
doing right by our veterans. Guardsmen and Reserve soldiers 
will be sorely needed for the foreseeable future. Let's give 
them the respect and care that they all so rightly deserve.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.014
    
    [GRAPHIC] [TIFF OMITTED] T0085.015
    
    [GRAPHIC] [TIFF OMITTED] T0085.157
    
    Chairman Tom Davis. Mr. Waxman, thank you very much.
    Are there any other Members who wish to make statements? 
The gentleman from Nevada, Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman. I appreciate your 
taking the time to hold this hearing today. I would also like 
to thank our witnesses for coming here to testify. Sergeant 
Perez is here today, a constituent of mine, from Logandale, NV. 
I would like to especially thank him and his wife Elena for 
traveling this long way to be with us today.
    Our country is at war in a war against terrorism. 
Throughout this war, thousands of our brave men and women have 
volunteered to wear military uniforms and fight for the 
freedoms that many of us take for granted. Unfortunately, this 
war has had its casualties, but it is our job as Members of 
Congress to make sure that our injured and returning soldiers 
are cared for in the best possible manner.
    The purpose of this hearing today is to examine the 
effectiveness and the efficiency of Army medical administrative 
processes and procedures that govern injured Army Guard and 
Reserve soldiers. Although the majority of these men and women 
are treated appropriately and above and beyond, we are now 
aware that many returning soldiers are experiencing 
difficulties associated with active duty medical extensions, 
medical retention processing, Medical Evaluation Boards, and 
Physical Evaluation Boards. With these programs, many returning 
soldiers are finding that they will have to deal with numerous 
layers of bureaucratic red tape, significant paperwork, and in 
some situations problems associated with their pay and 
benefits.
    I have two constituents who have submitted their testimony 
to the committee regarding this problem. One of my 
constituents, Brian Robinson, was not able to be here today. 
Brian was a specialist in the Nevada Army National Guard. 
During his time in Nevada Army National Guard he was deployed 
to Iraq, where a vehicle he was riding in was struck by a hand-
detonated land mine. As a result of this attack, Specialist 
Robinson suffered damage to both of his ears, cuts and bruises 
over his left eye, fractures to his left elbow and left wrist, 
a crushed index finger, severe head and back pain, whiplash, 
shrapnel damage, as well as swelling and bruising.
    After this attack, Specialist Robinson was flown from Iraq 
to Kuwait, and then from Kuwait to Germany for additional care. 
But after about a week in Germany, Specialist Robinson was 
cleared to return to the United States. Specialist Robinson was 
then admitted for care at Madigan Hospital and was granted 30 
days leave for convalescent care. It was during this time that 
the U.S. military contacted his parents to notify them that he 
had been injured and that he was in a hospital in Germany.
    Finally, while Specialist Robinson was being cared for by 
the Air Force physicians at Nellis Air Force Base in Las Vegas 
while on convalescent leave, the Army decided that Sergeant 
Robinson would have to return to Madigan for care by Army 
physicians as opposed to Air Force physicians.
    Sadly, Mr. Chairman, Specialist Robinson's story is not 
unique. Another one of my constituents, Sergeant Joseph Perez, 
who is here today, is going to tell a similar story about the 
difficulties he encountered after being injured in the line of 
duty in Iraq.
    Sergeant Perez is an exemplary American who served this 
country both since 1988 in the U.S. Marine Corps and later in 
Nevada Army National Guard, and is certainly someone that we 
should be proud of, since he received the Naval Commendation 
Medal, Sergeant of the Year for Western Region, and Recruiter 
of the Year.
    I, of course, will let Sergeant Perez tell his story in 
person, but I will point out that both Specialist Robinson and 
Sergeant Perez proudly served our country during the global war 
on terror, and both have submitted testimony not to bash the 
Army, but rather to help find a solution to this longstanding 
problem.
    Mr. Chairman, I am hopeful that our Army witnesses will 
help us look toward an effective, long-term solution, and I 
firmly believe that our Reserve soldiers who were injured or 
became ill in the line of duty should be given the pay and the 
benefits they deserve in an accurate and timely manner.
    Again, thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Any other Members 
wish to make statements? Ms. Norton.
    Ms. Norton. Mr. Chairman, I think you do a service for 
members of our military and for Congress, alike, in holding 
this hearing, and I appreciate that you have done so. I want to 
thank the members of the military who have agreed to step 
forward to help educate the Congress and to help us better 
prepare for what we should be doing for our members of the 
military, and especially the Reserve and the National Guard.
    Walter Reed Hospital is, of course, located in my District 
here in the District of Columbia, and I have visited Walter 
Reed and seen world class treatment of the most seriously 
injured. I have also seen television reports of state-of-the-
art treatment moving people from the battlefield to where they 
can be treated. So it looks like there are some places in the 
military where people do get first-class treatment.
    Members of Congress are particularly close to the Reserve 
and National Guard. They are citizen soldiers and we have been 
hearing complaints now for years, particularly since the Iraqi 
war. I am concerned on two levels: first and foremost, at the 
health care that returning soldiers are receiving or not 
receiving; and, second, with the future of the volunteer Army, 
itself. We will hear about that. I believe there have been some 
improvements. There are still complaints. We need to know what 
the status is today and what we can do about it.
    As to the volunteer Army, we are dealing with an unpopular 
war at home that has already taken its toll on recruitment for 
the Army Reserve and National Guard. We need to do all we can 
if we want to have a volunteer Army to make sure that people 
want to join that Army, particularly at a time when we are 
engaged and they see it every day on television in a guerilla 
war on the ground. At the very least they need to know that if 
they are wounded they are going to get the best health care 
that the United States has to offer. Every member of this panel 
I am sure is committed to seeing that happens.
    I thank you again, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Any other Members wish recognition? Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this hearing on medical treatment of injured Army 
National Guard and Army Reserve personnel.
    As I stated at the committee's hearing last year, it is 
deeply troubling to learn of the pervasive problems associated 
with pay and medical treatment of Guard and Reserve personnel. 
I believe--and I am sure that many other members of this 
committee believe, as well--that this situation is simply 
unacceptable. While I am comforted to learn of new efforts to 
help address these important issues, such as the community-
based health care initiative, I am equally unhappy with the 
fact that there are soldiers who shed blood, sweat, and tears 
in the service of this country experiencing pay disruptions or 
medical care that is as much a burden as it is a blessing.
    Insufficient planning and poor management controls by the 
Army made it ill equipped to meet the needs of the Guard and 
Reserve soldiers recently activated and deployed in Iraq, 
Afghanistan, and elsewhere around the world in the war on 
terror.
    A central focus of this hearing is to examine the quandary 
many Guard and Reserve soldiers find themselves in when they 
are classified in a medical hold status while injured or ill. 
While approximately 5,000 Reservists are in medical hold, too 
many of our Nation's bravest have to endure long delays in 
diagnosis and medical treatment in austere facilities far away 
from friends and family. The consequences of this problem often 
manifest themselves in pay disruptions, stress, and undermined 
morale at a period of time when injured Guard and Reserve 
soldiers should be primarily focused on recuperation.
    The GAO has indicated in its report entitled, ``Military 
Pay: Gaps in Pay and Benefits, Etc.,'' that sensible guarantees 
could not be given that Guard and Reserve soldiers would 
receive undisrupted pay and benefits in the event that they 
became wounded or sick. The study also indicated a startling 
finding that a designation of ``falling off orders'' lead to 24 
of 38 Reservists having their pay disrupted while they were 
undergoing medical care.
    Additionally, the GAO cites numerous obstacles to 
inefficient management in the medical treatment of Guard and 
Reserve soldiers ranging from poor dissemination of information 
to soldiers about the active duty medical extension to lack of 
an integrated personnel system that is updated at all times.
    Mr. Chairman, finally I believe that we honor the service 
and sacrifice of those who risk their lives for our Nation in 
the Armed Forces by eliminating inefficient, ineffective 
bureaucracies that undermine their ability to receive the pay 
that they are entitled to and the benefits that they are 
entitled to.
    I am eager to hear from the witnesses today about what has 
been done and what is being done to address the pay and benefit 
problems Guard and Reserve soldiers are experiencing, and I 
hope, in the words of one of my constituents, that we don't 
have motion, commotion, and emotion and no results.
    Thank you very much, Mr. Chairman. I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0085.016

[GRAPHIC] [TIFF OMITTED] T0085.017

[GRAPHIC] [TIFF OMITTED] T0085.018

[GRAPHIC] [TIFF OMITTED] T0085.019

    Chairman Tom Davis. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First, I would like to begin this opening statement by 
thanking our brave soldiers for their courage and bravery, not 
only on the battlefield but for being here today on behalf of 
your comrades. I was struck to the core when reading your 
stories. You are quite right in stating you are sadly not alone 
in this poor treatment. The Nation, the Pentagon, and this 
Congress owes you better.
    Sergeant Allen, you spoke of the responsibility leadership 
carries, and I commend you for that. Soldiers, particularly 
disabled soldiers, should not be further burdened by 
disconnected bureaucracies. As members of this committee and in 
this legislative body, we must take responsibility and lead 
better in this area.
    This is not a new issue for me. In August 2004 the problems 
severely disabled soldiers were facing came to my attention and 
on September 1st I introduced H.R. 5057--and this is a 
bipartisan bill--with Congressman Jones and Congressman Hoyer 
to expand the DS3 program in the Pentagon. That bill envisioned 
a joint command center with an executive agent to be a one-
call-fits-all helpline for soldiers, Marines, Sailors, Airmen, 
and Coast Guardsmen.
    It was intended to help with all sorts of problems severely 
disabled servicemen and women face when they return home, 
including pay, medical appointments, caseworker management, 
transportation, employment-related issues, and many other 
problems. Senators Bond and Kennedy introduced companion 
legislation in their chamber, and we came very close to passing 
that legislation before the close of the 108th Congress.
    Now, I know we were onto something when Paul Wolfowitz, 
Secretary Wolfowitz, held a ribbon-cutting ceremony on February 
1st of this year to launch the Military Severely Injured Joint 
Support Operations Center. This center draws heavily from H.R. 
5057, and I congratulate the Pentagon on this effort.
    We are working with our colleagues in the House and Senate 
to monitor this program and its progress and to see if it is 
working and if we can help.
    The issue before us today is not just about processing 
paperwork; it is about the most basic promise we make to all 
men and women who put a uniform on and take the oath to serve 
our Nation. As leaders we have the responsibility to take care 
of these men and women and to leave no one behind and to not 
ignore them once we bring them home.
    One great lesson from today's testimony and the GAO report 
is that our Federal Government needs to get much smarter in the 
way we do business. We have spent millions and millions of 
dollars creating joint weapon systems, open architecture 
platforms, and other integrated systems to create a more 
seamless battlefield between our military branches. Certainly 
we can do the same for our payroll and other processing systems 
for the Army, Navy, Air Force, and Marines. I fear the stories 
we hear today are just the
tip of the iceberg and we should draw from the courage of these 
soldiers to fix this system and to help those who will follow.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T0085.020

[GRAPHIC] [TIFF OMITTED] T0085.021

[GRAPHIC] [TIFF OMITTED] T0085.022

    Chairman Tom Davis. Thank you very much.
    Any other opening statements?
    [No response.]
    Chairman Tom Davis. Well, if not we will proceed to our 
first panel of witnesses. We are very honored and grateful that 
you are here today to share your personal experiences with the 
committee. I understand that some of you appear with a little 
apprehension about how your candor today might affect your 
future careers in the military. Let me just say that we 
appreciate the opportunity to receive your testimony under 
oath, and you have our assurances that you will not pay a 
professional price for sharing your stories with us. In fact, 
Congress is deeply gratified for your willingness to step 
forward.
    We welcome today Mr. Gregory Kutz, the Director of 
Financial Management and Assurance at the U.S. Government 
Accountability Office; Brigadier General Raymond C. Byrne, the 
acting State Adjutant General of Oregon; Sergeant First Class 
John Allen, B/3/20th Special Forces Group, North Carolina 
National Guard.
    Sergeant Allen, it is nice to see you again and have the 
opportunity to publicly thank you for all that you have done to 
bring the plight of injured Guard and Reserve soldiers to the 
attention of this committee.
    We also have with us Sergeant Joseph Perez, the 72nd 
Military Police Co., Nevada National Guard; Chief Warrant 
Officer Rodger L. Shuttleworth, Chief, Reserve Component 
Personnel Support Services Branch, Army Human Services Command, 
Maryland National Guard. Chief Shuttleworth is accompanied by 
Chief Warrant Officer Laura Lindle, who is here to support 
Chief Shuttleworth's testimony--so when we swear everyone in, 
if you could rise and raise your right hands--and Master 
Sergeant Daniel Forney. He is a Reserve Component liaison, 
Medical Holding Co., Walter Reed Medical Center, an Army 
Reservist from Pennsylvania.
    Sergeant Forney, it is also good to see you again and I 
want to thank you for your commitment to those soldiers and 
their families. Give my best to your fellow Reserve liaison 
soldiers at Walter Reed.
    Before we begin, I want to recognize and thank a few more 
people who are here accompanying our first panel. Along with 
Mr. Kutz, I want to recognize John Ryan, Gary Bianchi, and 
Diane Handley of the GAO Special Investigations Office, who 
over the last 2 years have gone beyond the call of duty to 
assist this committee with its investigation.
    I also want to welcome and thank Mrs. John Allen and Mrs. 
Joseph Perez for coming here today with your husbands. As we 
salute your husbands' service and the sacrifices, we salute 
yours, as well.
    There is another husband and wife team I want to recognize 
and thank who have provided separate written statements today 
about their experiences: Specialist Brian Robinson of the 
Nevada National Guard, and his wife, Mrs. Nicole Robinson, 
whose stories I encourage everyone to read. I think Mr. Porter 
referred to it in his opening remarks.
    I want to thank everybody for taking part in this very, 
very important hearing. It is our policy that all witnesses be 
sworn before their testimony, so if you would rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Your entire written testimony is in the record. Questions 
will be based on that. That is in the public record. There is a 
light in front of you that will be green when you start. It 
will turn orange after 4 minutes, and at the end of 5 minutes 
it turns red. We would appreciate it if you could move to 
summary after that, but we are not going to gavel you shut if 
you feel you just need to add something. This is an important 
issue, and we want to give you time to adequately explain to 
live Members what we are about today in your experiences.
    Mr. Kutz, we will start with you and we will move straight 
on down the line. Thanks for being with us and thanks for the 
work that you and your team have done on this.

 STATEMENTS OF GREGORY D. KUTZ, DIRECTOR, FINANCIAL MANAGEMENT 
AND ASSURANCE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; BRIGADIER 
 GENERAL RAYMOND C. BYRNE, JR., ACTING STATE ADJUTANT GENERAL, 
  STATE OF OREGON, ACCOMPANIED BY COLONEL DOUG ELIASON, M.D.; 
SERGEANT FIRST CLASS JOHN ALLEN, B/3/20TH SPECIAL FORCES GROUP, 
  NORTH CAROLINA NATIONAL GUARD; SERGEANT JOSEPH PEREZ, 72ND 
   MILITARY POLICE CO., NEVADA NATIONAL GUARD; CHIEF WARRANT 
   OFFICER RODGER L. SHUTTLEWORTH, CHIEF, RESERVE COMPONENT 
    PERSONNEL SUPPORT SERVICES BRANCH, ARMY HUMAN RESOURCES 
  COMMAND, MARYLAND NATIONAL GUARDSMAN, ACCOMPANIED BY CHIEF 
   WARRANT OFFICER LAURA LINDLE; AND MASTER SERGEANT DANIEL 
 FORNEY, RESERVE COMPONENT LIAISON, MEDICAL HOLD, WALTER REED 
       MEDICAL CENTER, U.S. ARMY RESERVIST, PENNSYLVANIA

                  STATEMENT OF GREGORY D. KUTZ

    Mr. Kutz. Mr. Chairman and members of the committee, thank 
you for the opportunity to discuss pay problems for mobilized 
Army National Guard and Reserve soldiers. I previously 
testified that 94 percent of the soldiers that we investigated 
had pay problems. My bottom line today is that gaps in pay and 
benefits cause significant stress and financial hardship for 
injured soldiers and their families.
    My testimony has two parts. First, pay problems for injured 
soldiers, and second, Army's new process for soldiers injured 
fighting the global war on terrorism.
    First, we found that the Army does not know how many 
injured soldiers have experienced pay problems. Injured Reserve 
Component soldiers can request to have their active duty orders 
extended and their pay and benefits continued. When soldiers 
fall off of orders, pay and benefits generally stop. Based on 
our analysis of Army data for 2 months in 2004, 34 percent of 
the 867 soldiers who applied for extensions fell off their 
orders before their requests were granted.
    We found the following examples of the impact of these 
problems: soldiers and their families denied medical and dental 
care, loss of access to the post exchange and commissary, 
negative impact on credit due to late payment of bills, 
soldiers borrowing money from friends and family to pay bills, 
added stress for soldiers that already had serious medical 
conditions, and injured soldiers spending incredible amounts of 
time to obtain entitled pay and benefits.
    Of our 10 case study, 2 soldiers are here today, Sergeant 
First Class John Allen and Sergeant Joseph Perez. They will 
tell you their own stories.
    The key causes of these problems included a weak control 
environment, a broken process, and non-integrated pay and 
personnel systems. For example, one Special Forces soldier who 
lost his leg when a roadside bomb destroyed his vehicle in 
Afghanistan missed three pay periods totaling $5,000. Why? 
Because this soldier's application did not contain adequate 
information to justify his qualification for an extension.
    The financial hardships experienced would be far worse if 
not for the heroic efforts of people like Master Sergeant 
Forney and Chief Warrant Officer Shuttleworth, who will also 
tell you their stories.
    Second, there is some good news. The Army's new process for 
soldiers injured fighting the global war on terrorism appears 
to have significantly improved the front-end application 
process. According to Army officials at each of the 10 
installations that we visited, they have experienced few delays 
in obtaining initial orders for injured soldiers. However, 
several key issues remain, including the Army's lack of 
visibility over injured soldiers. This problem reflects DOD's 
many stovepiped personnel systems. For example, the Army 
contacted one soldier's parents to inform them that their son 
was injured in Baghdad and was at a hospital in Germany; 
however, this soldier had been back in the States for 20 days.
    In conclusion, this pay issue is another example of the 
ineffective and wasteful business practices processes that 
plague virtually every aspect of DOD's high-risk business 
operations. To its credit, the Army's new streamlined process 
has significantly reduced the initial delays extending orders; 
however, many problems remain and must be addressed in a more 
comprehensive manner with clear leadership and accountability 
for results. There should be zero tolerance for the poor 
treatment of our injured heroes.
    Mr. Chairman, I look forward to continuing to work with 
this committee to help soldiers. I am also honored to be at the 
table with the other witnesses who have each played a 
significant role helping injured soldiers, and I look forward 
to their testimony.
    [The prepared statement of Mr. Kutz follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.023
    
    [GRAPHIC] [TIFF OMITTED] T0085.024
    
    [GRAPHIC] [TIFF OMITTED] T0085.025
    
    [GRAPHIC] [TIFF OMITTED] T0085.026
    
    [GRAPHIC] [TIFF OMITTED] T0085.027
    
    [GRAPHIC] [TIFF OMITTED] T0085.028
    
    [GRAPHIC] [TIFF OMITTED] T0085.029
    
    [GRAPHIC] [TIFF OMITTED] T0085.030
    
    [GRAPHIC] [TIFF OMITTED] T0085.031
    
    [GRAPHIC] [TIFF OMITTED] T0085.032
    
    [GRAPHIC] [TIFF OMITTED] T0085.033
    
    [GRAPHIC] [TIFF OMITTED] T0085.034
    
    [GRAPHIC] [TIFF OMITTED] T0085.035
    
    [GRAPHIC] [TIFF OMITTED] T0085.036
    
    [GRAPHIC] [TIFF OMITTED] T0085.037
    
    [GRAPHIC] [TIFF OMITTED] T0085.038
    
    [GRAPHIC] [TIFF OMITTED] T0085.039
    
    Chairman Tom Davis. Thank you very much.
    General Byrne, thank you for being with us today.

      STATEMENT OF BRIGADIER GENERAL RAYMOND C. BYRNE, JR.

    General Byrne. Mr. Chairman, members of the committee, I 
would like to thank the Committee on Government Reform for the 
opportunity to speak today.
    Over 3,000 Oregon soldiers have served their country as 
part of the Operation Iraqi Freedom and Operation Enduring 
Freedom. These citizen soldiers have served bravely with the 
expectation of returning to home, family, and employer. 
Currently, over 100 of them have paid a much larger price 
through injury or illness, and 10 have made the ultimate 
sacrifice in the service of their Nation.
    I am currently serving as the Acting Adjutant General of 
Oregon and work directly for the Governor of the State of 
Oregon, the Honorable Ted Kulongoski. This point is important 
because it highlights where my loyalty and duty reside: to the 
Governor and the soldiers and airmen of the Oregon National 
Guard.
    Additionally, I have been questioned by some individuals as 
to my interest in Oregon National Guard soldiers currently in 
Title 10, active duty status. I have been told they are no 
concern of mine. The answer I give is that Oregon National 
Guard is a force provider and has a duty to ensure that the 
soldiers and airmen on active duty are well taken care of. 
Their employers, families, friends at ``Fort Oregon'' all have 
an interest in their care and well-being. All my soldiers and 
airmen will come home to Oregon one way or another.
    In visiting my soldiers who have returned wounded or 
injured, I have a few observations which I would like to share 
with this committee.
    First, I applaud the community based health care 
organizations [CBHCO], which is the single greatest improvement 
in care for Reserve Component soldiers I have seen in my 
military career. For the first time we have placed the needs of 
the soldiers and the Reserve Component on par with the active 
duty soldiers. This program is critical and should be 
supported, continued, and, in fact, expanded to allow soldiers 
to return home, yet receive the care they need and deserve.
    Second, we must look at the administrative processes that 
hold up wounded or injured soldiers at power projection 
platforms. The soldier whose medical decisionmaking process is 
complete, a determination has been made, should never have to 
wait up to 30 days for an order releasing him or her from 
active duty.
    Third, we must provide advocacy for Reserve Component 
soldiers in helping them through a foreign and often 
frightening process of determining disability. The Army Medical 
Department provides first-class care on par with any health 
care organization in the Nation, but our Reserve Component 
soldiers are accustomed to a far different system, a much more 
consumer friendly system with choices, especially when it comes 
to getting second opinions on procedures that may provide to be 
life-changing, and the feeling on their part that your health 
care provider works for you. We need advocates other than the 
Inspector General for our Reserve Component soldiers who can 
break down the perceived and real barriers.
    The reality many of our soldiers are faced with after a 
wound or injury is that they may not be able to return to their 
civilian occupation, and the financial support that is 
available through the disability ratings determination may be 
inadequate to sustain them and their families while they are in 
the retraining environment.
    Their lives and the lives of their families are forever 
changed. Soldiers that go through the MEB process and are 
discharged with 0 percent disability receive no disability 
payment, cannot join a Reserve unit, and in some cases may not 
be able to return to their previous job.
    It is the experience of one VA counselor I talked to in 
Oregon that it is not uncommon for VA to double the disability 
rating received by service members going through the MEB/PEB 
process.
    The stress and turmoil a Reserve Component soldier faces 
not knowing if they will be able to support their family or 
return to their jobs is a clear impediment to the healing 
process. We must do a much better job of bridging the gap from 
AC to RC or to VA when our soldiers are injured or wounded.
    Finally, we need to help heal the hidden wounds of post 
traumatic stress disorder [PTSD], and post deployment 
readjustment. A recent New England Journal of Medicine study on 
four battalions of active duty soldiers and Marines provides a 
valuable insight into future problems and issues. Again, this 
study was done on active duty personnel, and I would urge a 
study be conducted on Reserve Component personnel who face far 
different circumstances as they return to their communities and 
not active duty posts that contain services and support not 
found in many remote areas of Oregon.
    I have with me today Colonel Doug Eliason, senior medical 
officer of Oregon and a family practice physician in Salem, OR.
    Thank you for your time and your support.
    [The prepared statement of Brigadier General Byrne 
follows:]

[GRAPHIC] [TIFF OMITTED] T0085.040

[GRAPHIC] [TIFF OMITTED] T0085.041

[GRAPHIC] [TIFF OMITTED] T0085.042

[GRAPHIC] [TIFF OMITTED] T0085.043

[GRAPHIC] [TIFF OMITTED] T0085.044

[GRAPHIC] [TIFF OMITTED] T0085.045

[GRAPHIC] [TIFF OMITTED] T0085.046

[GRAPHIC] [TIFF OMITTED] T0085.047

[GRAPHIC] [TIFF OMITTED] T0085.048

[GRAPHIC] [TIFF OMITTED] T0085.049

[GRAPHIC] [TIFF OMITTED] T0085.050

[GRAPHIC] [TIFF OMITTED] T0085.051

[GRAPHIC] [TIFF OMITTED] T0085.052

[GRAPHIC] [TIFF OMITTED] T0085.053

[GRAPHIC] [TIFF OMITTED] T0085.054

[GRAPHIC] [TIFF OMITTED] T0085.055

[GRAPHIC] [TIFF OMITTED] T0085.056

    Chairman Tom Davis. Thank you very much.
    Sergeant Allen, thank you for being with us. I just want to 
urge the committee members to listen to his testimony.
    This is the equivalent of financial and medical friendly 
fire from armed services. We met before over at Walter Reed, 
and I asked you to come forward, and I very much appreciate you 
and Sergeant Perez being here to share your personal stories, 
because this puts a personal face on the problems that our 
troops face when they come back from battle.
    Thank you very much.

          STATEMENT OF SERGEANT FIRST CLASS JOHN ALLEN

    Sergeant Allen. Yes, sir.
    Mr. Chairman, members of the committee, it is a distinct 
honor to be here to discuss the important issues affecting 
National Guard soldiers.
    I would like to start by saying that I am definitely out of 
my element, so I am a little nervous today, so bear with me.
    My name is Sergeant First Class John Allen. I am a National 
Guard soldier from Blairstown, NJ. In my civilian occupation, I 
am a police officer. In the Army I am a member of Bravo Co. 
Third Battalion 20th Special Forces Group. I am a U.S. Army 
Special Forces weapon sergeant responsible for weapons, 
tactics, and security.
    I have been a soldier for 14 years, and while in 
Afghanistan I was asked to extend my deployment, and I happily 
did. If medically able to, I would rejoin my brothers in arms, 
who did some wonderful things to free an oppressed people from 
a reign of tyranny. It was and is well worth every personal 
sacrifice I have made.
    I tell you my story in hope that after you hear my 
testimony I will motivate you all to make the necessary 
changes.
    Over a year ago when the GAO investigators first approached 
me, I was asked what can we do to make things better. My 
statement then is exactly the same as it is today: to bring to 
light a broken, dysfunctional system in order to correct it so 
not one more of my comrades will have to go through what I went 
through.
    I am retiring later this month, and nothing I say or 
anything you may elect to do as a result of my testimony will 
personally benefit me.
    In the summer of 2002, while deployed in Afghanistan, I 
sustained multiple injuries from a helicopter accident and a 
grenade blast. I am currently receiving medical treatment at 
Walter Reed. After being wounded, I was placed in the Army's 
active duty medical extension program [ADME]. I have 
experienced significant problems from ADME program, and by Army 
regulation it is a 90-day extension. When my orders expire, it 
creates a multitude of problems for me and my family--no pay, 
no access to the base, no medical coverage for my family, and 
the cancellation of all my scheduled medical appointments.
    Our wounded soldiers have our share of champions, to 
include the President, the Secretary of Defense, the Deputy 
Secretary, and, of course, this committee. I want to personally 
thank all of you. In regards to what I call the day-to-day 
survival people who I have been blessed with meeting, such as 
Gary Bianchi of the GAO, Grace Washbourne of Chairman Davis' 
staff, I can never thank you enough for what you have done for 
me and my family. Most important of all, I want to thank all 
the doctors and health care professionals at Walter Reed 
Medical Center for their excellent health care.
    We have come a long way since I was wounded, and some 
significant changes have been made. By working together with my 
champions, we have already made some significant 
accomplishments. We brought Walter Reed up to the handicapped 
access standards, the Reserve Component pay and finance system 
is being reworked, we have done away with the active duty 
medical extension program for injured warriors, and we have 
opened the severely disabled veterans clinic. However, 
significant problems continue to exist that will require all of 
our assistance in completing the task.
    The problems as I see them are a combination of the system 
and some of the personnel. Commanders at all levels must be the 
engines for change, and the subordinates must follow that 
commander's intent. Unfortunately, there is no overall good guy 
wearing a white hat and no overall one bad guy wearing a black 
hat. I wish it were that easy.
    I have certainly encountered some lazy, non-caring, even 
prejudicial individuals along the way, but had an adequate 
system been in place to take care of Reserve Component disabled 
veterans, it would have made my situation almost impossible to 
occur. As long as I have been around the Army, I could not have 
taken care of my family had I not met some of the prominent 
people that I have. I shudder to think what would have happened 
to me and my family without all of you that have helped me.
    So what happens to the lower enlisted soldier that knows no 
one of importance, the young soldiers who don't have any rank? 
Who are their champions? How does that leave a Reserve 
Component soldier that gets wounded today? Exactly where I was 
2 years ago--left to figure it out on his own.
    In my written testimony I have included a detailed timeline 
of the events related to my ADME issues that clearly 
demonstrate a broken system. When the people in my life hear my 
story, they look at me like I am crazy. Even Gary Bianchi of 
the GAO, when I first met him, looked at me like it was an 
unbelievable story until I provided him the supporting 
documentation and proof.
    As I was writing my testimony on what happened to me over 
the last 3 years, I have to agree with them that I must be 
crazy to put myself and my family through this. A lot of guys 
can't deal with this, and somewhere along the process they just 
quit and they go home. I would like to be able to say the 
problems are fixed; however, this is not the case.
    Currently, I still have problems with my orders, and up to 
last month having pay problems. The system is still broken, and 
the only way I have been able to get anything done is by 
knowing the people that I know. What happens if you don't know 
those people?
    My first order I would like to address is the commander's 
intent and the willingness of the mid-level command personnel 
to make logistical effective changes.
    The President of the United States declared war on the 
terrorists, and the fact is we are at war. I have met many 
leaders, to include the current administration, senior 
representatives of the Department of Defense, senior leaders of 
the Army, and some of this great Nation's Congressmen. I 
personally feel that they all do genuinely care about me and my 
family. I have seen them get involved in matters and get them 
fixed. I believe that the breakdown is clearly in the mid-level 
command.
    The hospital administrators are also doctors. What 
surprises me is their own motto: cause no further harm. How can 
you allow Reserve Component soldiers to go months without pay, 
nowhere to live, their medical appointments canceled, and not 
even being paid? The result is a massive stress and mental pain 
causing further harm, violating their own creed.
    In the Special Forces we have our own motto: free the 
oppressed. In this case, the oppressed are the Reserve 
Component disabled veterans that I am here to free today.
    I have personally talked to and seen many Marines being 
treated at Bethesda Naval Station. I was amazed how their 
stories and care treatment are the complete opposite of my own. 
Examples of this are contained in my written report and are in 
detail for your support.
    We are at war and Walter Reed is the receiving center for 
our wounded warriors. I would like to invite each one of you to 
come to Walter Reed for an unannounced visit and see for 
yourself. It would be very easy to correct the situation if the 
command element climate supported it. The command staff at 
Walter Reed needs to show their care. After what our soldiers 
have done and sacrificed for our Nation, don't they deserve 
better?
    When a Marine is wounded and can no longer support the 
team, they are idolized and treated as the heroes they are. 
When someone asked me about joining the service, I always used 
to recommend the Army. Now, after what I have lived, if one of 
my own sons came to me I think I would tell him to join the 
Marines. After thinking about that, I thought of what my father 
used to tell me--you were either part of the problem or you are 
part of the solution. I was wrong to think that. I am part of 
and I have felt proud to be part of the Army, and I should not 
let a broken system taint my overall experience. Rather than 
being part of the problem, I am here today to be part of the 
solution. We need to fix our Army, my Army.
    Case worker confusion--the saying ``too many cooks in the 
kitchen spoils the soup'' holds entirely true here. There are 
too many people involved. Each one thinks that what they do is 
the most important. The most important thing is what my doctor 
tells me, not spending my time chasing my tail for their 
accountability and their paperwork. I only need the U.S. Army 
Special Operation Command liaisons. These individuals are more 
than willing and capable of handling all of my needs. Each 
branch should have their own people helping their own people. 
If someone is needed, it should go to my liaison and he can 
schedule it. If there is an argument between my ombudsman and 
whoever it is, I as the patient can go on about getting better 
and not being stressed and harassed.
    Reserve Component versus active duty--I do not know of any 
Reserve Component units that have liaisons. Until the U.S. Army 
Special Operations Command commander sent their liaisons on a 
permanent basis to Walter Reed, life was very difficult for me. 
But what about the Reserve Component soldier that is in 
transportation company? Who represents him and who is his 
ombudsman?
    I thank God I joined the Special Forces, because the 
Special Forces are taking care of me. But that shouldn't make 
me special in terms of care and representation. In combat, I 
was considered a member of the active duty. Once I was wounded, 
I was considered a Reserve Component soldier. As a Reserve 
Component soldier, my family is not authorized on my orders to 
relocate with me. I am not entitled to use my leave as terminal 
leave. I am not entitled to have open-ended orders.
    My wife and three sons are still living in New Jersey. My 
oldest son, who was 10 years old when I was mobilized, is going 
to be 14 in July. I have missed a large part of his life and I 
can never get it back. When I asked to go home, I was told 
active service members have to go to a medical treatment 
facility. I am not an active service member. I am a Reserve 
Component soldier and my family is at home, a fact that is 
causing me significant hardship. However, when I tried to get 
any of the active duty entitlements I am told I am a Reserve 
Component soldier. I have no problem with either scenario, but 
make a command decision on which one I am and allow me the 
benefits of that system.
    If I need to come back, do so at the Government's expense, 
instead of causing me, the soldier, more harm by separating me 
from my family and having the soldier assume the financial 
burden of paying to go see his family.
    The medical hold company I am sure has some kind of 
function. To those members of the company that are here today 
who have given your all, I thank you and I apologize to you for 
putting you in this category with the rest. If they are 
supposed to keep our accountability, my liaison does that. If 
it is handling and processing my orders and ensuring that I am 
paid, then they are not doing their job. It is to this end that 
I boldly state there is no reason for the existence of the 
medical hold company. They are simply another cook in the 
kitchen just spoiling the soup.
    They also need to understand they are not dealing with 
basic training recruits, but rather our wounded warriors. 
Requiring amputees to attend formations, demanding you to come 
any time they need something, and the general lack of caring 
they have clearly demonstrated by allowing Reserve Component 
soldiers to go off orders is wrong. The overall attitude toward 
our Nation's finest is disgusting, and at best they should be 
ashamed of themselves. This goes on with the full knowledge of 
the mid-level command philosophy.
    Point five, confusion about the system: everything in the 
Army has some kind of standard. I have not ever seen a standard 
for medical treatment for Reserve Component soldiers. The 
overall board process is confusing. Add in the Reserve 
Component factor and it is even more confusing and complicated. 
Records for Reserve Component soldiers are kept at their units 
and their command are not readily available.
    Once mobilized, I was assigned to Third Group Special 
Forces. The day I was ordered to ADME my problems started. From 
the first day to the present, there is not one set of standards 
that I have been provided, and I have not ever submitted the 
same supporting documentation. Had I been provided a manual for 
injured National Guard or Reserve soldiers, I could have 
avoided the majority of the problems that I had.
    The Medical Board for Reserve Component versus active 
duty--the Medical Board for all soldiers should be the same, 
but it is not. Bullets don't discriminate between Reserve 
Component and active duty soldiers, and neither should the 
Army. Once I was identified as an injured soldier, I should 
have stayed on OEF/OIF orders. The pot of money to run the war 
should include the price tag for taking care of the wounded for 
that war.
    I was left on open-ended OEF/OIF orders. There would be 
only two amendments to my orders, instead of the eight or nine 
I think I have had. My orders would not run out in 90 days or, 
under the new system, every 179 days. If my doctor knows that 
my treatment is going to take 14 months, then my orders should 
be for 14 months, plus processing time. Why is the decision 
left up to some personnel person to determine how long if my 
treatment is going to be shorter than the order? If the 
treatment is longer, there is no problem because it is an open-
ended order.
    The burden should not be on me every 90 days to get all my 
paperwork done and turned in, keeping following up on the 
status of those orders, getting new ID card, a new window 
sticker for my vehicle, my family have to travel all the way 
down to get new ID cards at their expense and re-register for 
Tri-Care. I should be focusing on my medical treatment, the 
reason that my orders were extended in the first place.
    The Board is supposed to be the same for active duty and 
Reserve Component soldiers, but there is one huge difference 
that I have contained in my written testimony.
    Wounded soldiers are not quitting the team, they are 
getting out because their disabilities force them to. There is 
a big, big difference. They should still be considered part of 
the team.
    While talking to a U.S. Army Special Operations commander 
recently, he told me of an idea of his of tracking soldiers 
once they are out. This is a great idea, and I think the Army 
should be helping the disabled veterans after they are out with 
their employment, getting into the Veterans Affairs system, and 
their reentry into civilian life.
    My conclusion--I believe in utilizing my chain of command. 
In my case, my chain of command went through military channels 
and made no progress. I did not start this investigation; my 
chain of command did on my behalf. I have been cooperative in 
hopes of fixing a broken, dysfunctional system, and I have been 
persecuted for my actions.
    Mr. Chairman, I am retiring this month and I am not afraid 
to speak my mind, but for some of the guys still receiving 
medical treatment and guys that are going to be at Walter Reed 
testifying today, to quote my father one last time, ``Tell the 
truth and let the chips fall where they may. That way you can 
always look at the man in the mirror in the eye.'' I know my 
father would be proud of me today standing here letting the 
chips fall by fighting for my
disabled veterans. I am grateful for the opportunity to tell my 
story. I thank you for all your support and effort. God bless 
you and the greatest Nation on this planet, the United States 
of America.
    [The prepared statement of Sergeant Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.057
    
    [GRAPHIC] [TIFF OMITTED] T0085.058
    
    [GRAPHIC] [TIFF OMITTED] T0085.059
    
    [GRAPHIC] [TIFF OMITTED] T0085.060
    
    [GRAPHIC] [TIFF OMITTED] T0085.061
    
    [GRAPHIC] [TIFF OMITTED] T0085.062
    
    [GRAPHIC] [TIFF OMITTED] T0085.063
    
    [GRAPHIC] [TIFF OMITTED] T0085.064
    
    [GRAPHIC] [TIFF OMITTED] T0085.065
    
    [GRAPHIC] [TIFF OMITTED] T0085.066
    
    [GRAPHIC] [TIFF OMITTED] T0085.067
    
    [GRAPHIC] [TIFF OMITTED] T0085.068
    
    [GRAPHIC] [TIFF OMITTED] T0085.069
    
    [GRAPHIC] [TIFF OMITTED] T0085.070
    
    [GRAPHIC] [TIFF OMITTED] T0085.071
    
    [GRAPHIC] [TIFF OMITTED] T0085.072
    
    [GRAPHIC] [TIFF OMITTED] T0085.073
    
    [GRAPHIC] [TIFF OMITTED] T0085.074
    
    [GRAPHIC] [TIFF OMITTED] T0085.075
    
    Chairman Tom Davis. Thank you very much, Sergeant Allen. 
Thank you.
    Sergeant Perez.

               STATEMENT OF SERGEANT JOSEPH PEREZ

    Sergeant Perez. I would like to begin by conveying my 
sincere appreciation to all the committee members today for 
this opportunity to help my fellow soldiers.
    It is my belief that everyone here today is ultimately here 
for the same reason: for love of country and for the heart of 
the armed forces. It is my hope that what is conveyed here 
today is taken in a positive force, and the steps to improve 
the policies and/or administration issues that have been found 
lacking, which applies to all U.S. soldiers and their families.
    I am a 38-year-old Nevada National Guard. I was on active 
duty ever since the Twin Towers fell. I wanted to serve and 
defend my country. I was deployed with the 77nd Military Police 
Co. in September 2001 for Operation Noble Eagle in Monterey, 
CA. During this deployment, two Army stop loss orders affected 
my enlistment. My second stop loss regarding specific MOS 
extended my service again for 12 months, but after revision put 
my ETS to April 2003.
    Shortly after our 13-month deployment ended, I took a 
position as a Federal fire fighter at the Department of Air 
Force, Hill Air Force Base, Layton, UT. However, I was ordered 
to come back to Nevada to redeploy for Operation Enduring 
Freedom. I was notified that I was to be placed on a third 
involuntary stop loss order that extended me to full length of 
the deployment plus an additional 3 months. Our deployment 
orders sent us to Fort Lewis, WA, to prepare, be evaluated, and 
deploy to Iraq.
    In late April I was deployed to serve my country as a 95 
Bravo military police sergeant. My unit provided critical 
support in theater operations in criminal and security 
detention missions. We worked endless hours in weather 
conditions exceeding 130 degrees in order to build and 
establish confinement operations in an area which is well known 
as extremely hostile to coalition forces. We endured over 22 
days of rocket-propelled grenades, mortar attacks, and with 
performing MP missions in Iraq under the most dangerous and 
hostile conditions such as several vehicle escort missions to 
various locations in downtown Baghdad and nearby cities.
    I was also selected to play a vital role in transporting 
detainees to and from the courthouse in downtown Baghdad and 
was subject to daily threats of ambush and attacks during these 
convoys.
    On July 13, shortly after returning from the convoy with my 
squad releasing detainees in the Baghdad area, we were alerted 
to rush to the prison compound area. An uprising within the 
insurgent detainees led to a prison riot. The insurgents were 
armed with sharpened tent poles, tent spikes, and rocks. They 
had already injured one soldier, and there was another pinned 
down. We led a group of soldiers into the compound as a quick 
reactionary force. While under fire, we helped the downed 
soldier and quelled the prison riot with physical force. During 
these actions I injured my left knee while taking down a 
combative. I also received a strong hit to my head.
    That night again, just like so many other nights, we 
continued to be RPGed and mortar attacked. On occasions, these 
mortars entered the confined areas, killing and wounding 
numerous detainees. They also took the lives of two MI soldiers 
working with us. I remember the day working on the tower and 
witnessing part of our own company of 11 soldiers, many of them 
being close friends, load onto a military deuce truck. They 
were struck by an IUD just outside the prison walls. It blew 
them all out of the vehicle, causing many injuries. I still to 
this day relive these moments and feel helpless and have rage.
    While on a family related emergency leave, I reported to 
Nellis Air Force Base to have my knee examined and x-rayed. 
They found my knee injury causing me to be unfit for deployment 
and in need of medical attention. I notified the Army National 
Guard. I was informed that because the physical profile was 
conducted by the U.S. Air Force, I could not receive care until 
I returned back to Baghdad, Iraq to be examined by an Army 
medical doctor. Not wanting to get into trouble, I returned 
back to my unit without delay.
    On September 2, 2003, I finally had a chance to be seen by 
the 28th CSH unit--combat support hospital--in Baghdad, Iraq. 
Because of the injuries to my knee, I was placed on medical 
evacuation orders to Landstuhl, Germany. After further 
examination and x-rays in Germany, they put me on a plane to 
Fort Lewis, WA, to be attached to the 2122 GTSB Medical Hold 
Co. for treatment. I was put in the Reserve platoon under 
National Guard sergeant on orders. He stated his unit was on 
orders to work with injured soldiers of the National Guard and 
Reserves. He also stated that they were overwhelmed with the 
amount of soldiers and the host of medical and personal 
problems they were coming home with. I was given old sheets and 
led to an old World War I barrack with insufficient water, 
heating, limited access for injured soldiers, and with mold 
growing on the walls. I was given a bus schedule and told to 
find a case manager at Madigan Hospital.
    I found and reported to my case manager. I was set up to 
see medical staff within a few days. I was told they wanted to 
start my medical process with physical therapy, which was set 3 
weeks away. During this time many of the medical hold soldiers 
felt like they were lost and thrown away.
    When you come back to the States, you figure that 
flashbacks and nightmares were a normal stress that you go 
through when you come out of a war zone. Soldiers still say, 
however, that, despite the Army's efforts, languishing in 
medical hold compounds one's medical and psychological issues. 
Everything is uncertain. You are denied care, and you feel that 
they don't give a damn whether you get better or not.
    During the month of November 2003, my National Guard unit 
was REFRAD and returned home for Thanksgiving. They were given 
a hero's welcome. The ones in medical hold watched it on TV.
    On December 8, 2003, I was finally allowed to take 
convalescent leave. At this point my wife had to care for me, 
and I couldn't see any hope of getting my position back as a 
fire fighter at Hill Air Force Base. My wife was beginning to 
see signs of change in me and she was worried about my mental 
health because of the nightmares and always wanting to be 
alone. I couldn't even enjoy the time with my children and 
visit family without putting up a front. It was my case 
manager, Captain Boardman at Madigan, who promised to get me 
remote care through the VA so I could heal and start physical 
therapy near my family.
    I reported to the VA in Las Vegas in January 2003. I met 
with my primary care provider and began medical treatment. That 
care I received at the VA was outstanding. Most of my care and 
surgery was contracted through a VA fee base program. I was 
able to get x-rays, MRIs, physical therapy, surgeries to my 
knees and my neck. My appointments were handled quickly and 
with the best of care. I also started a veterans PTSD focus 
group at the vet center in Las Vegas. My wife and I do believe 
that they saved my life. For the first time I felt that my 
medical and psychological issues were finally being handled 
properly.
    During my stay in medical holdover, I received little to no 
counseling regarding traumatic events I experienced during war. 
Why didn't I or others ask for help? The culture here is that 
unless your leg has been torpedoed off or your arm shot off, 
then it is not a combat-related injury. Many servicemen here 
fear to be stigmatized for being able to deal with their 
problems on their own. I did the same thing that everyone else 
does in the military--you suck it up. You don't whine. But I am 
sure during the course of treatment a soldier will display 
signs that will suggest that an individual is in need of mental 
health counseling of some kind.
    My National Guard unit was demobilized February 10, 2004. 
Because of this, my family and I fell off the Army records. 
After many calls to the National Guard and hearing that, 
because I was still on Title 10 orders, it was an active Army 
problem, I started to call Fort Lewis. I was told the exact 
opposite. I was finally told that there was confusion about how 
to handle the ADME orders and line of duty packages. I asked to 
speak to my case manager, to find out he was replaced by a new 
case manager who didn't have a clue who I was or what my 
situation was. My family went 3 months without military IDs, 
Tri-Care health, pay, and even denied entrance onto Nellis Air 
Force Base to shop.
    Not being able to work, I had to borrow money from family 
members to make ends meet. At the same time, I was still 
receiving phone calls from the 2122nd medical hold company 
saying they couldn't fix anything unless I came back, or I had 
to come back or I would be placed on AWOL. This caused more 
stress because I had just had surgery to my cervical spine.
    I was low on funds, didn't have orders, or even a military 
ID card. My wife and family members couldn't believe all the 
problems, and started to think that maybe I did something wrong 
and I was being punished. All this made me feel worthless, and 
I ended up on April 22nd in a mental health unit at Mike 
O'Callaghan Hospital for PTSD and again suicidal thoughts.
    After two extension orders and a back-dated ADME to report 
back to Fort Lewis to be attached to the Madigan Medical Hold, 
I finally was able to get my family updated in DEERS and have 
military ID again. I was finally able to show proof of 
employment and get a rental house for my family. I reported 
back to Madigan Medical Hold on July 8, 2004. I was glad to see 
that the troops did not have to stay in the old barracks any 
more, but a lot of the same problems still remained. Many of 
the soldiers were still having pay and order problems. I 
started to try to help as much as I could.
    I have been involuntarily medically separated because of 
the injuries I accrued for my country in Iraq in combat. I have 
gone through a major life change, and within the next month I 
am having to endure another. I have always had pain in my 
knees, and if I walk long distances or lift anything the pain 
is greater. Pain in my knees is from the injuries and the past 
two knee surgeries for tears, damaged cartilage, micro 
fractions, and lateral release.
    I also had cervical fusion. I have lost some range of 
motion in my neck. I sometimes can't turn my head to the left 
and if I look down for a long time, such as reading a 
newspaper, my neck locks up. I have chronic neck pain which 
starts in my neck and ends in my lower back. I have taken large 
doses of hydrocodone throughout the day and the night for 
relief. This prevents me from performing tasks that I feel that 
I need to be sharp mentally. This medication, along with other 
medication, keeps me balanced. I have to take the medication 
for the rest of my life.
    I can't get to sleep most nights, and I must sleep with a 
CPAP machine strapped to my face because of severe obstructive 
sleep apnea. I also sleep with a hard mouth brace because of 
the TMJ surgeries to my jaw. I still do my therapy with the VA 
in Las Vegas.
    I continue to take my PTSD group meetings every week at the 
Las Vegas Vet Center because it works for me. It helps keep me 
strong and centered. I and many of my colleagues say such 
problems are particularly acute among the National Guard and 
Reserve soldiers, who make up 40 percent of the deployed 
troops. I don't think it has been budgeted for the Reserve and 
Guard components, and now they want us to suck it up. An 
injured soldier shouldn't be thought of less because he is a 
Guard member or a Reserve. I am very displeased how my family 
has been treated during my medical holdover. But the issues 
that are mostly directly affecting my future is my dispute with 
the Army over disability ratings.
    Most of my conditions are chronic and I can't perform many 
of my functions as a fire fighter nor law enforcement. These 
were my chosen fields I have strived to be proficient and 
professional at. I am told to look forward to a VE rehab 
program to help with education and training into a new field 
starting me over again. My family and I live in a rural city 
outside of north Las Vegas. Our closest health care, hospital, 
major food shopping, fitness center, and largest gas station 
has always been Nellis Air Force Base, Las Vegas, NV. My first 
daughter was even born here when I served with the U.S. Marine 
Corps. It is very hard knowing that this has been taken away 
from us.
    As a Nation, we should note the special contributions of 
our National Guard and Reserves. Since the attacks of September 
11th, and extended into the Iraq conflict, demands placed on 
citizen soldiers and their families have been extraordinary.
    I make this statement today not to complain or look for 
pity, but to finally have my chance to tell my story. I don't 
believe or want to presume that I have a well-rounded knowledge 
of military procedures. I do believe this committee has a 
vigilant desire to make provisions to the adjustment and 
strengthening of these programs.
    I would like to make the following considerations: National 
Guard and Reserve forces face challenges that their active duty 
avoid. When part-time soldiers do return home, they have little 
interaction with other soldiers and sometimes feel that they 
are the only ones going through these emotional adjustments. I 
feel a bit isolated, like the rest of the world has just gone 
by me for the past 3 years. For these reasons, I feel that 
remote care would benefit and aid the recovery of individual 
soldiers and their families. I would recommend the Veteran 
Association in ways of medical care.
    The medical holding companies have full control over the 
soldiers to be able to utilize them in tasks that don't hinder 
their care as soldiers. This could help the soldiers progress 
in the military and have an active duty component to handle 
problems that arise. Many of these soldiers fall through the 
cracks when it comes to promotions, educational benefits, and 
awards.
    The wounds of the battle frequently do not require hospital 
attention. There are severe long-term physical and 
psychological disabilities that prevent veterans from attaining 
positions in our Nation's work force. When a soldier returns, 
they have to go through a complex workman's comp type paperwork 
to prove that there is something that they did in war, which is 
the reason that they are sick. That can take from 4 to 16 
months. They come home injured, and rather than being 
integrated into society they are stuck in medical limbo waiting 
for their disability ratings and then being diagnosed with pre-
existing conditions that imply that they shouldn't have been 
sent overseas in the first place.
    For these reasons, I believe there should be a seamless 
transition from going from medical hold status to veteran 
status. I feel that the veterans service organizations should 
have more access to bases to help the injured soldiers deal 
with the MEB and PEB issues. Families would be free to focus on 
physical and emotional recovery progress in lieu of following 
up on paperwork, policies, and medical care on their own 
financial and emotional expense.
    I have found that many of the problems occurred during my 
medical care because the DOD and the VA create an independent 
patient record. Records are hand carried to and from agencies. 
I also found, unfortunately, that the current VA/DOD process 
for sharing information about eligible service members does not 
facilitate quickly and there is not a smooth transition into 
enrollment into the VA programs.
    There seems to be a great deal of difference in the 
policies regarding the medical care and treatment of soldiers 
between the branches of the military. I feel that the treatment 
to an injured should be written and maintained as one standard. 
A medical doctor's opinion shouldn't change based off of the 
uniform that they wear.
    Last, I would like to see more progress and emphasis on 
mental health services available in post traumatic stress and 
depression. It has made a difference in my life, and I feel 
that the programs such as at the vet center will give a great 
deal of comfort to many of the returning veterans as they 
undergo their personal struggles.
    It is because I have a great deal of love for my country 
and family that I write this statement. I have cherished much 
of my life in the armed services. I have taken pride in wearing 
the uniform. I have made great friends and I have seen and 
accomplished many things throughout my deployments. There can 
be no doubt of the commitment of those in uniform, whether 
active, National Guard, or Reserve. When we speak words of 
sacrifice, courage, and conviction it touches my heart as a 
former Marine and a soldier, as they do for those who are 
serving in uniform today in the defense of our safety and 
liberty.
    I thank you again.
    [The prepared statement of Sergeant Perez follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.076
    
    [GRAPHIC] [TIFF OMITTED] T0085.077
    
    [GRAPHIC] [TIFF OMITTED] T0085.078
    
    [GRAPHIC] [TIFF OMITTED] T0085.079
    
    [GRAPHIC] [TIFF OMITTED] T0085.080
    
    [GRAPHIC] [TIFF OMITTED] T0085.081
    
    [GRAPHIC] [TIFF OMITTED] T0085.082
    
    [GRAPHIC] [TIFF OMITTED] T0085.083
    
    Chairman Tom Davis. Sergeant Perez, thank you very much for 
sharing that with us. Mr. Shuttleworth, thank you.

   STATEMENT OF CHIEF WARRANT OFFICER RODGER L. SHUTTLEWORTH

    CWO Shuttleworth. Mr. Chairman, members of the committee, 
it is a distinct honor to be here to discuss important issues 
affecting injured Reserve Component soldiers, including those 
injured as a result of the global war on terrorism. Our Reserve 
Component soldiers have born the brunt of growing pains 
necessary to change a system that was not designed to support 
Reserve Component soldiers.
    My name is Chief Warrant Officer Rodger Shuttleworth. My 
military career began in 1973, where I served in the active 
Army until 1981. I then joined the Maryland Army National Guard 
and became a full-time employee of the National Guard Bureau of 
1988. I was assigned to my current position as Chief, Reserve 
Component Support Services Branch, Army Human Resources 
Command, in February 2003. My responsibilities include all 
aspects of personnel for Reserve Component soldiers ordered to 
active duty under Title 10.
    Prior to September 11th, there were only two programs that 
dealt with injured Reserve Component soldiers--active duty 
medical extensions and incapacitation pay. Incapacitation pay 
and allowances are paid to soldiers without them being on 
active duty. There are a lot of soldiers on incapacitation pay. 
Over $3 million monthly is spent on their care. Without proper 
oversight, questions to the best use of the money remains. If 
these soldiers were placed on active duty medical extension, 
they would be better managed and the Army would spend less 
money getting them returned to duty or placed in the physical 
disability system.
    The numbers of injured soldiers in these programs prior to 
2001 was manageable, but due to the largest mobilization of 
Guard and Reserve since World War II in the global war on 
terrorism, the amount of injured needing assistance grew beyond 
the capacity to assist.
    For example, I started with a staff of six. At the time, 
the Adjutant General of the Army gave me a mission: to do all I 
could to increase the capacity to care of our injured Reserve 
Component soldiers. At that time, the only process was active 
duty medical extension and incapacitation pay. An active duty 
medical extension prior to September 11, 2001 was used to order 
drilling soldiers injured during training to active duty for 
medical care. Because we were not prepared for the disaster of 
September 11, ADME had to be used to support GWOT soldiers 
injured in the line of duty. Because ADME was not specifically 
designed for GWOT, soldiers were being denied eligibility, fell 
off pay systems, and lost benefits for their families.
    ADME was supposed to be a 179-day program, longer than the 
30 days given, but the Army G-1 who was responsible for 
establishing and interpreting ADME policy also chose to execute 
it, and they became a major stumbling block, shortening 
extensions as we tried to ensure GWOT soldiers were treated 
equally to their active component counterparts.
    These problems continued until the creation of medical 
retention process in March 2003. This was an improvement, 
better because the application process was easier, the 
requirements were streamlined, and all extensions were 
automatic for 179 days. We also directly submit the soldiers' 
orders to the Defense Finance and Accounting Service so pay 
problems and benefits will end.
    In January 2004, I established the Medical Services Section 
of my branch to facilitate MRP processing, Medical Board 
process, and other RC personnel functions for medical reasons. 
During this time, we began to realize that we were also 
responsible to train and assist Reserve Component and active 
Army personnel in medical care facilities who had any questions 
at all on Reserve Component processing.
    Some calls are from the medical holdover companies who do 
not always know how to process or help Reserve or Guard 
soldiers being treated in their facilities, but most of the 
callers are Guard and Reserve soldiers who have not gotten any 
answers from their chain of command at the facilities and have 
exhausted all other avenues in health and service.
    One of the major problems is that Army medical personnel do 
not interface with Army personnel specialists. This continues 
to cause serious misunderstandings, delays, and holdups in 
personnel services.
    Another of the major problems is that we have a medical 
command telling an injured Guard or Reserve soldier one thing 
and we tell him another.
    Another continuing source of inter-Army command 
difficulties for us involves our relationship with the Army G-
1. The Army G-1 is by definition supposed to be a source of 
policy decisions, innovation that the Army Human Resources 
Command are executors of, but this is not always the case. This 
causes the following problems: great delays in the approval in 
each soldier's paperwork, causing increased days in treatment; 
pay problems and benefits; and great family stress. We have 
spent far too much time debating between our offices on the 
most effective way to support injured Reserve Component 
soldiers.
    In regards to these difficulties, I am happy to report that 
2 days ago the Army G-1 transferred functional responsibility 
for all types of Reserve Component personnel management in 
regards to medical processing to my branch.
    I want to bring forward another problem that my staff and I 
encounter every day. Reserve Component soldiers are remaining 
on active duty for long periods of time without being injured 
into the physical disability process and remain in a medical 
board process for long periods of time. Of the paperwork we 
review, approximately 80 percent of ADME and MRPE Reserve 
Component soldiers will end up in a physical disability system. 
Part of the problem is the shortage of trained manpower, both 
at medical command and the U.S. Army Physical Disability 
Agency. Injured Reserve Component soldiers have paid the price 
for this, but we are trying to improve manning and training.
    Guard and Reserve soldiers have so many difficulties 
because the active Army tries to treat them like active Army 
soldiers in all cases, and in some instances they cannot. An 
example is when an active Army soldier is med-evac'ed from a 
theater of operation to a Stateside medical facility and 
determined to be an outpatient, they are returned to their home 
unit for a period of recovery. The Reserve Component soldier 
may not have a home station because his unit has been mobilized 
and there may be no one left at home station to assist them. 
This causes us to lose accountability for these soldiers. All 
of them are authorized to receive medical care and treatment 
and should be reported through active Army organizations prior 
to returning to their home of record.
    To alleviate this problem, the Army has created the 
community based health care initiative. This initiative will 
allow some Reserve Component soldiers, after being processed 
through an active Army organization, to return to their home of 
records and their families, remain on active duty, and receive 
medical care. Each community based health care organization is 
responsible for the care and accountability of the soldiers 
assigned them. My office assists in training the staff 
personnel of these newly created facilities. In addition to 
that, I have placed over 80 NCOs at Army treatment facilities 
in the United States and Germany to assist in patient tracking 
and Medical Board processing. Because of the placement of these 
NCOs, completed Medical Board ratios have now improved. Over 
400 are being done annually.
    We have also placed personnel at the U.S. Army Physical 
Disability Agency, the DOD Defense Finance and Accounting 
Service, and at the CBHCOs. We were also asked very recently by 
the Army Installation Management Agency to provide experienced 
Reserve Component command and control staff onsites at the 
installation because there is a shortage of permanent staff at 
the installation medical readiness processing units and CBHCOs.
    There is still a need to sustain this staff currently and 
at least 2 years after the current contingency operations end. 
As of last week, the Director of the Army staff has approved my 
office to fill these leadership voids with the Army extended 
active duty program.
    I hope from my testimony you understand how important it is 
to me that my staff and the Army continues to resource and 
improve policies aimed at supporting injured Guard and Reserve 
soldiers.
    There are four things I want to bring to your attention.
    One involves a needed change to Title 10. Under the current 
law, Reserve Component soldiers not injured in the line of duty 
are entitled to a retirement benefit that soldiers that are 
injured in the line of duty are not entitled to. That bothers 
all of us. I respectfully ask that Congress change this unfair 
law. Right now, if you are injured prior to entering the armed 
forces and have 15 years of credible service and are found to 
be non-retainable, you are eligible to retire and obtain 
benefits at age 60. But if you agree to come to active duty and 
fight for your country and are injured in the line of duty, you 
are not entitled to this benefit.
    Second, I have deep concerns about current Army procedures 
for injured Reserve Component soldiers at certain Army 
installations, including Walter Reed, Fort Bragg, Fort Bliss, 
Fort Lewis, Fort Dix, and Fort Drum. These installations do not 
provide timely and accurate medical personnel records or line 
of duty investigations that are vital to Reserve Component 
soldiers who are leaving active duty and will need future 
medical care. At these installations there is no standard for 
consistency in who is responsible for providing us timely and 
accurate records or applications for MRP extensions so that the 
soldier is entered into the system. If this doesn't change, 
Army case managers will not have access to the records they 
need, orders will be cut too late and pay and benefits will be 
affected.
    I ask the Army Installation Management Agency to help 
create standards for installations so that we will have the 
same policies in place to assist these soldiers.
    Third, even with the new influx of medical case workers 
assigned to assist injured Guard Reserve soldiers, the ratio 
between patient and care manager is still too high at at least 
50 to 1 at each hospital and now 30 to 1 at the CBHCO. These 
people are crucial to making appointments, liaisoning with 
families, liaisoning with doctors on treatment time tables, and 
also entering correct information into the mod system, one of 
the many data bases tracking medical data, timely and 
accurately. If you can, please help us with this.
    Last, my office needs more resources. I have space issues, 
funding issues to visit facilities for training and assistance, 
and equipment shortages. I have time and again asked my budget 
office for the ability to use reimbursable GWOT funds to cover 
these expenses and am denied. I don't understand the reluctance 
to use already dedicated funds. I look to Congress to consider 
line item appropriations to help us in the Guard and Reserve.
    Thank you, Mr. Chairman.
    [The prepared statement of CWO Shuttleworth follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.084
    
    [GRAPHIC] [TIFF OMITTED] T0085.085
    
    [GRAPHIC] [TIFF OMITTED] T0085.086
    
    [GRAPHIC] [TIFF OMITTED] T0085.087
    
    [GRAPHIC] [TIFF OMITTED] T0085.088
    
    [GRAPHIC] [TIFF OMITTED] T0085.089
    
    [GRAPHIC] [TIFF OMITTED] T0085.090
    
    Chairman Tom Davis. Thank you very much.
    Sergeant Forney, thank you.

           STATEMENT OF MASTER SERGEANT DANIEL FORNEY

    Sergeant Forney. Mr. Chairman and members of the committee, 
it is a distinct honor to be here to discuss active duty 
medical extension, the medical retention process, and life at 
medical hold at Walter Reed for injured Guard and Reserve 
soldiers.
    I am Master Sergeant Forney, an Army Reservist from 
Pennsylvania with almost 25 years of proud service. I arrived 
at Walter Reed Army Medical Center in July 2002, after I 
volunteered and received orders from Chief Warrant Officer 
Shuttleworth of the Human Resources Command. Chief Shuttleworth 
saw the need for someone to help the administrative process for 
Guard and Reserve soldiers because the active duty medical hold 
company did not know how to help these soldiers.
    I was the first Reservist liaison to be sent to Walter Reed 
to help soldiers. I was the only one there in that capacity for 
over 1 year. When I first arrived, there were only about 10 
injured Army Reserve and National Guard soldiers on ground. I 
assessed the situation and determined that the process was 
broken. Soldiers fell off orders and had delayed pay and lost 
medical care. The soldiers' families also lost Tri-Care 
benefits.
    Then came the task of keeping them on orders. This is where 
the real trouble started. Because I had to send their packets 
to the Army G-1 at the Pentagon to be signed and approved, 
sometimes it would take up to 4 months to get their orders. 
Although doctors had requested extensions for soldiers for up 
to 179 days and we submitted those requests, G-1 sometimes did 
not grant this much time, instead approving 90-day extensions. 
This caused more workload for us and put the soldiers at risk 
of falling off orders. This caused great hardship for the 
soldiers and their families, not only monetarily but because 
medical care for soldiers and their families stop when soldiers 
are not on orders.
    G-1 requirements for valid support for an extension often 
changed, sometimes without notice. For example, at first a form 
46-2-R was acceptable for doctors to sign off, and this worked 
well. However, after about 6 months this form was no longer 
taken. Now a letter from a doctor was needed that included 
significantly more information, such as the diagnosis, 
prognosis, and medical treatment plan. This then slowed down 
the process even more, because a soldier would have to get his 
or her doctor to take time and write the letter.
    In April 2004 the medical retention process was 
implemented. This was a great step forward, reducing the 
process of getting orders down to an average of 7 days.
    There are still stipulations for getting MRP orders. They 
have to be on 12301 orders. These are the mobilization orders. 
There are still some bugs in the system and we are working with 
the Human Resources Command to fine tune the process.
    In addition to the problem with extending orders for 
soldiers and lost pay and benefits, there are other issues I 
want to bring to the committee's attention. For example, during 
all this we encountered even more problems with the active 
duty, as they did not know how to deal with the Reserves and 
National Guard soldiers.
    When I first arrived at Walter Reed in 2002 I found a 
soldier from California that was living in the hotel on ground. 
He had been living there for 3 months paying out of his own 
pocket. He had fallen off orders 2 months before. When he went 
to active duty, he was told that there was nothing they could 
do for him because he was National Guard. I did get him his 
back pay, and that took 2 months because it took a month to get 
him back on orders. As far as I know, he has never been 
reimbursed the total cost for his out-of-pocket expenses, 
approximately $5,000.
    Mr. Chairman, my staff and I do whatever it takes to make 
sure that soldiers are taken care of. The motto for the medical 
hold company at Walter Reed is soldiers first. My staff and I 
have spent approximately $2,000 of our own money in the past 2 
years and are continuing to pay out of our own pockets for a 
lot of the supplies we use to uphold the motto. The medical 
hold company only gets so much money a year, and my office is 
at the bottom of the list for funding. What makes this so bad 
is the Reserves and Guard are fighting next to the active duty, 
and still we treat them like second class citizens. We do not 
want to be treated special, just equal.
    Thank you, sir.
    [The prepared statement of Sergeant Forney follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.091
    
    [GRAPHIC] [TIFF OMITTED] T0085.092
    
    [GRAPHIC] [TIFF OMITTED] T0085.093
    
    [GRAPHIC] [TIFF OMITTED] T0085.094
    
    [GRAPHIC] [TIFF OMITTED] T0085.095
    
    Chairman Tom Davis. Thank you very much. That was very 
compelling testimony. It shows what happens when you don't get 
information sharing between the Guard and the Reserves and 
military and we are not interconnected and we are just letting 
regulations drive this whole process and we are forgetting 
about the people.
    I am going to start the questions with Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman. Again, thank you to 
the panelists for pretty compelling testimony.
    I have a specific question for Sergeant Allen. You had 
mentioned in your testimony and your backup regarding being 
persecuted for actions, vindictive medical hold personnel, and 
have been labeled as a troublemaker. Can you give me a little 
more details about that? How are you being labeled, and what 
are they doing to cause you additional pain and suffering right 
now?
    Sergeant Allen. At the time, sir, when the original GAO 
investigation was started with Mary Ellen Tribanic--she is a 
great help--my chain of command started the investigation. They 
came to me. I was forthcoming, provided the information that 
was asked of me.
    Shortly thereafter the first GAO report came out. The 
information that was contained in that report was very 
specific. It stated something to the effect, if my memory 
recalls correctly, ``A Virginia Special Forces National Guard 
police officer from New Jersey--'' something to that effect--
``receiving medical treatment at Fort Bragg,'' which I was the 
only one of. When that happened I had on different occasions be 
called late at night, 8:30, 9 p.m., be told that I had a 4:30 
or 4 a.m. appointment, medical appointment that is, sir.
    And on more than one occasion I went to the appointment, 
documented when, where I was told to go. On one occasion at 
4:30 a.m. I was told to have an MRI done. I went there. The 
NCOIC, the non-commissioned officer in charge, told me that he 
had told my medical administrator that they would not do my 
appointment at 4:30 a.m. and that I should come back Friday 
when my original appointment was scheduled.
    I had the NCOIC write a letter, memorandum for record, 
stating that, turned it over to GAO, and continued to have 
those type of problems. I do have them documented. I have filed 
them all with the GAO. It is very unfortunate. I consider 
myself a big boy. I can take care of myself, and I have taken 
care of myself. But my concern has been and will be for the 
lower enlisted guy that can't take care of themselves. That is 
one of the examples.
    Mr. Porter. Thank you.
    Mr. Chairman, if I could ask an additional question. Mr. 
Perez, again, thank you for being here. I know that you are a 
long way from home. I appreciate it very much. Very compelling 
testimony.
    Can you kind of explain the difference between when you 
were in the Marines and your most recent service? Was there 
different treatment? Was there substantial difference in 
culture and procedures?
    Sergeant Perez. Yes, I would go ahead and answer that. I 
enjoyed both the services, but I did feel that the care and the 
commitment that I received while in the Marine Corps, even like 
it was stated, your mid-level sergeant positions, a gunnery 
sergeant or an E-6 or an E-7 took great pride in taking care of 
their under-enlistment soldiers. They didn't try to pass it up 
the chain of command for the next level to try to take care of 
it. I found when I got into the Army once again that, even 
though we were serving side by side with the active, when we 
got back it was just--there seemed to be a complete discomfort 
on how we were treated as National Guard and Reserves.
    Many of our command, when they come back to the States, 
they are coming back--when they come back to the States they 
are getting demobilized. They are going back to their job, 
going back to 1 weekend out of the month, 2 weeks out of the 
summer time. So when you are trying to get in contact with the 
same command that you are serving active duty with, a lot of 
times you can't get in contact with them, not even e-mails or 
replies back. That is real discomforting, because this is the 
command group that you are hoping would be there for you the 
same way you were there for them.
    Mr. Porter. Thank you.
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Kutz, in trying to get our arms around this process, 
your own work has been important to us. We recognize that part 
of what has happened with the medical hold has to do with the 
planning connected with the overall war effort. But when we 
hear this testimony and we read your report, it has all the 
appearance of a startup effort. Can I ask you whether or not 
medical holds have been used? Is it because we have such a 
large--in other wars? I mean, it is as if we haven't done this 
before. Does this have to do with the fact that we are using 
such a large Reserve and Guard component to fight this war in 
the first place?
    Mr. Kutz. Yes. Under the old active duty medical extension 
program that was really not designed for the kind of 
operational tempo we have today. The medical retention process 
that they have in place now is probably more equipped with what 
is going on, although that has risks also.
    But really what you are talking about here is that they 
have a process, not a program that is being managed. There is 
no one really in charge, no one responsible. There is a lot of 
organizations, but there is no one that you can go to and say 
that you are accountable for this.
    So the kinds of stories that you have heard from the 
witnesses here, you can't go hold anyone accountable at this 
point, and so I think someone does need to be put in charge, 
made responsible. Put a general in charge of this, an 
ombudsman, or someone, because this is clearly reflective of 
not being prepared to handle the kind of operational tempo that 
you have today.
    Ms. Norton. In that regard I would like to get a 
clarification from Chief Warrant Officer Shuttleworth who said 
in one section of his testimony he was happy to report that G-1 
transferred functionally ``responsibility for all types of 
Reserve Component personnel management with regard to medical 
readiness processing to my branch.'' I wonder if you are saying 
that you are in charge. What are the specific effects you 
expect from the transfer you describe in your testimony?
    CWO Shuttleworth. The G-1 has transferred all orders 
processing and for the most part the approval process except 
for those cases that may be in question or may have some 
specific things that doctors and medical professionals need to 
look at. But what that does is what we had before we did this 
was that we had several different agencies within the Army 
publishing orders, depending on the kind of active duty that 
you were going to place that soldier on.
    As of this month, we now own all the orders, ADME, medical 
readiness processing both one and two, and all the other 
processes that keep these global war on terrorism soldiers on 
active duty. Therefore, the soldier now has one place to go and 
one place to get those orders from and doesn't have to go 
wondering where they are going to get their next order from.
    Ms. Norton. Do you believe, for example, if you would just 
take me through a scenario--you have heard them here--that this 
would solve the problems we have heard and the testimony we 
have received here this morning?
    CWO Shuttleworth. Yes. ADME was never designed to be a 30 
or 60 or 90-day program. ADME was a program that was designed 
to be just what MRP is, but for a smaller number of people. It 
was designed to be a 179-day program, 6 months for each 
soldier, but because the individuals who managed the program 
chose to decide for themselves how much care a soldier really 
needed based on the number of days they wanted to put them on 
orders, those soldiers began to fall off orders, which was the 
wrong thing to do and that will be fixed. No order is cut for 
less than 179 days, and they are all directly fed to the 
finance accounting office so they will not drop off the system.
    Ms. Norton. We are going to really be expecting real 
improvements here. You talk about debates back and forth over 
what to do. It seems a pretty simple remedy that somebody has 
come up with. I can't imagine why it took so long if this is, 
in fact, centralizing control that was the answer all along.
    May I ask, because it looks like some progress was being 
made on the front end, that there were additional personnel 
that many on the front end were no longer falling off of their 
orders and pay, and there were housing standards. As a result 
of some of the work of this committee, it looks like some 
improvements have been made.
    Now, given the improvement you spoke of, it seems to me a 
signal improvement in your testimony. You nevertheless have a 
real mop-up job to do here, and therefore I am really 
interested in corrective efforts. My question really goes to 
part of, I guess, Mr. Kutz' testimony where he says we need 
advocates. I am sorry, this is General Byrne's testimony. He 
says we need advocates other than the Inspector General for our 
RC soldiers who can break down the perceived and real barriers.
    I wish you would explain what you mean. It certainly is 
true that you have to go all the way to that high level, a 
pretty nuclear level to get problems dealt with. I wonder what 
you have in mind, what kind of--are you talking about some kind 
of ombudsman, some kind of better troubleshooting? Does what we 
have heard from Mr. Shuttleworth take care of it in terms of 
the support you would need other than the advocate general in 
order to get these problems dealt with?
    General Byrne. Ms. Norton, I will go ahead and start it, 
and then I would like Dr. Eliason. Essentially, what I would be 
looking at is some sort of form of an ombudsman, someone who 
knows the system, who can take the part of the soldier. For 
example, in the process each of the soldiers is given a case 
worker, but the case worker doesn't necessarily work for the 
soldier, it works for the system in working through getting the 
soldiers to the end of the process, the medical process. So 
they are not neutral necessarily or for the soldier, and so as 
a soldier does go through the process they are not familiar 
with the process.
    Now, what we have done in Oregon is periodically we send 
our medical personnel plus our administrative personnel papers 
now up to the various places we have soldiers all across the 
Nation, and they go through and they assist them in any pay, 
personnel actions, and in some cases any medical actions that 
they can assist in.
    Let me turn it over to Colonel Eliason. He can better 
explain.
    Colonel Eliason. The uncertainty of medicine causes concern 
for our soldiers. When I as a private physician am asked by a 
soldier for my medical opinion, there is a relationship built 
on trust that has happened because they have selected me. They 
have come to me to be their doctor. They know that they have 
choices, that they can go and get second opinions, they can ask 
other physicians. Our soldiers, when they become injured----
    Ms. Norton. You said they can get second opinions, although 
that was one of the areas that Mr. Kutz' testimony said raised 
issues for members of the Reserve and Guard.
    Colonel Eliason. Yes, ma'am. I guess what I was trying to 
highlight is that the uncertainty happens frequently because of 
the fact that you will hear two separate stories, not because 
one system has better medicine than the other, but because of 
the fact that there is uncertainty and that different treatment 
plans vary based on different physicians.
    The problem is our soldiers are looked at. When they arrive 
at a medical facility they see a green-suit doctor who is the 
company doctor, the Army doctor. They don't always see this as 
their physician, a person they can trust and establish that 
kind of relationship. What advocacy is about is somebody who 
can help break down those barriers and explain the uncertainty 
in medicine, explain and advocate for the soldier, maybe even 
attend an appointment with them to settle a misunderstanding 
about their treatment plan.
    As General Byrne has said earlier, the Sergeant General has 
wonderful indicators of the quality of care that he provides in 
the system. The problem is our soldiers often begin with an 
element of distrust or at least concern about what health care 
they can receive, and this is their physician telling them that 
they need surgery or that it is better not to have surgery and 
maybe physical therapy first.
    Chairman Tom Davis. Thank you very much. I am going to 
take----
    Ms. Norton. Mr. Shuttleworth had----
    Chairman Tom Davis. Did you want to say anything, Mr. 
Shuttleworth, on that?
    CWO Shuttleworth. No, sir.
    Chairman Tom Davis. OK. I will take my 5 minutes. It looks 
to me like what we have, gentlemen, is a breakdown in the chain 
of command. I mean, it is very clear here that this is 
absolutely broken, and when people who are in the system tried 
to move forward and tried to be advocates they were ostracized, 
they were slapped down. We heard this from Sergeant Forney's 
testimony.
    Maybe a designated ombudsman whose job it is to get to the 
bottom of this and that is their job and nobody questions them 
is something that you need. We had people who tried to step up 
to that role, but the system tended to swallow them.
    You have so many different stovepipes in the military right 
now, so many chair fights, so we are not getting the 
information sharing back and forth. This has taken 30, 40 years 
to get it this way. Everybody wants to do it their own way. 
They want their own legacy system. They want this or that. We 
come into a war at this point and we can't put it together, and 
these people, these soldiers who are on the front lines taking 
fire, some of them killed, some of them injured coming back, we 
have a system that has been so turf driven that it is beyond 
the power of one or two people to fix.
    One of the purposes of this committee is to try to get 
Government to work as a unit. We don't have the jurisdiction of 
a lot of the other authorizing committees. We try to work 
across those lines to make it work. This is just an indication 
with some very sad consequences, and I think, from the 
perspective from the Department of Defense, some very 
embarrassing consequences of what has happened with years and 
years and years of these systems that are jealously guarded, 
that are stovepipes, that are not communicating with other 
systems, and the people that fall through the cracks.
    It gets so regulation driven at this point we forget about 
the mission, which is getting these people back on their feet, 
getting them the health care that they have earned, that they 
deserve, and getting them back out in society. It is 
embarrassing for all of us.
    Yes, I think there will be some appropriate followup action 
on this. The Armed Services Committee is also very, very 
concerned about this. But if these gentlemen hadn't taken their 
initiative to come forward--and we asked them to come. We asked 
them to come here. We begged them to come here. Nobody wants to 
embarrass anybody, but it wouldn't get fixed. We have more and 
more people in queue. I think people are trying to make it 
better, but I am not sure this isn't so stovepipe driven at 
this point it becomes more and more difficult all the time.
    General Byrne, can you give me some examples of some 
specific problems soldiers encountered during their time at 
Fort Lewis? And also you made the statement about these 
soldiers were of no concern of yours, which is a typical 
stovepipe answer that now they are under Army care and you guys 
back out. It is the typical turf fight. Who said that?
    General Byrne. I would rather not say.
    Chairman Tom Davis. I know you wouldn't, but I am asking 
you who said it at this point. Do you want to get with the 
committee later on? You know, it is not what ought to be 
happening. You agree with that, don't you?
    General Byrne. Yes, sir.
    Chairman Tom Davis. I mean, somebody has to be accountable 
somewhere when they are saying this kind of stuff, so I am not 
going to ask you to say anything but we are going to ask you 
afterwards. Will you help us? Because this should not be 
allowed to continue, and the person who said that needs an 
attitude adjustment.
    Go ahead, though. Tell me some of the problems.
    General Byrne. What concerned me, just to followup on that, 
the conversation I had with the individual, what concerned me 
most in the conversation was the fact that nowhere in our 
conversation did taking care of soldiers come up. It was the 
fact that there was a newspaper article that had been 
published, the fact that potentially I was not following 
procedures as far as how we went and did business. As a result 
of maybe a news article that came out, my intent was not to 
raise major issues, was not to----
    Chairman Tom Davis. Of course not.
    General Byrne [continuing]. Embarrass anybody, was not to 
create major problems. My whole purpose in going to Fort Lewis 
in this case was to take care of soldiers. The way I run things 
in Oregon, and I hold my subordinates accountable for this, is 
I don't place blame. What is the problem? Let's put our effort 
and energy into taking care of the problem, the issue. That is 
the way I do business. And so I sometimes, when things get 
sidetracked, I get real excited and it bothers me.
    Chairman Tom Davis. I think the statement is less 
reflective of the individual, I am afraid, and more reflective 
of the system.
    General Byrne. I would agree.
    Chairman Tom Davis. That is why I understand you don't want 
to come forward.
    General Byrne. Yes.
    Chairman Tom Davis. It probably is reflective of the 
system.
    General Byrne. I can't speak to it. I can only speak to 
individuals.
    Chairman Tom Davis. Yes.
    General Byrne. Very similar to what the soldiers here today 
have talked about, very similar things related: pay issues, 
promotion issues. I own some of that, and part of the reason 
why I went to Fort Lewis was to find out what is--after I 
finished the visit I divided up my findings what I had. I 
divided it up into three parts: what is it that I owned? What 
is it that maybe the medical folks owned? And what is it that 
maybe the post owned? Then I sent that off to Fort Lewis, and 
then I sent my folks the piece that I had.
    I deal with families, so any issues that were related to 
families and families not being taken care of I worked at.
    Chairman Tom Davis. That is fine. I am glad somebody was 
looking after them at this point.
    General Byrne. Well, I do.
    Chairman Tom Davis. Right.
    General Byrne. That is my job.
    The second piece that I worked on was there are pay issues. 
Again, we need one system, one pay system, and at this point in 
time that is not there, but strides are being made, and so I 
own some of the pay issues that the soldiers have. I also own 
some of the personnel issues, for example, promotions and 
things like that, so I own those, too. But as services and 
similar instances that these soldiers have testified toward, 
those are things that I had concerns of, and then I turned 
those back over to Madigan Hospital.
    Chairman Tom Davis. Right.
    General Byrne. I would like to compliment Dr. Dunn, who is 
the commander at Madigan Hospital. When he knows the 
information, he works it hard.
    Chairman Tom Davis. Thank you. My time is up, but let me 
just ask for Sergeant Allen and for Sergeant Perez and also to 
Mr. Shuttleworth and Forney, I mean, the two individual cases 
we heard about are not isolated cases, are they? Is that 
correct, Sergeant Forney?
    Sergeant Forney. Right.
    Chairman Tom Davis. Unfortunately, these are just two 
people. One, we had a long talk with Sergeant Allen, but he had 
a half dozen other people with him that had similar problems 
just over at Walter Reed, and this is just 1 day going through. 
Unfortunately, we are not taking one or two nit-picky 
instances. This is a problem that has been endemic throughout 
the system. Would you agree with that, Sergeant Allen?
    Sergeant Allen. Yes, sir, I would. From the six injured 
soldiers from my unit, all six of us had significant pay 
problems, significant problems with our orders not being 
renewed in a timely manner. And from the other National Guard 
and Reserve soldiers that are at Walter Reed with me, they were 
having significant problems.
    One of the caveats that I do want to add is there is a 
couple really good guys that were trying hard that were getting 
squashed, like Sergeant Forney.
    Chairman Tom Davis. Yes.
    Sergeant Allen. And Chief Shuttleworth and Chief Laura 
Lindle that was in my testimony, last month when I talked to 
you and I was having the pay problems and you read my testimony 
about the 23rd, well, that was due to Chief Shuttleworth and 
Laura Lindle. Hopefully now that he has gotten command of that 
structure, it is going to make a change for all these guys and 
we are not going to have what we have had.
    Mr. Kutz. Mr. Chairman, I would say that we looked at this 
overall. We are talking about hundreds, possibly over 1,000 
soldiers that have had this type of problem, based on our 
overall look.
    Chairman Tom Davis. Yes. And you don't think that is going 
to help recruiting and retention, do you, Mr. Kutz?
    Mr. Kutz. That is an issue, because the soldiers that 
aren't injured are very well aware of what is happening to the 
injured soldiers.
    Chairman Tom Davis. And they should be, frankly. I mean, 
this is just something that we weren't ready for.
    Mr. Ruppersberger, 5 minutes.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    I have a whole list of questions, Mr. Chairman, I would 
like to leave with GAO and have written answers given back, but 
I have another hearing I have to go to at 12.
    The one issue that I would like to talk about right now 
with respect to Walter Reed, I had one of my staff people go to 
a briefing this past Monday for the care that wounded soldiers 
currently were receiving at Walter Reed, and she left with the 
impression that even though there are still a lot of issues out 
there that we have discussed here today with respect to the 
Army and DOD and the problems from pay to care, but she left 
with the impression that a lot of the issues that we talked 
about here today, that Walter Reed has really resolved some of 
those problems.
    Now, when you go to a briefing sometimes you only hear what 
the top people want you to hear. I want to make sure, to hear 
from you all whether or not--I guess you, Chief Shuttleworth--
are there problems that still exist at Walter Reed? What are 
they? We have heard these problems today. If they are, let's 
talk about them.
    CWO Shuttleworth. Obviously I can't speak for the medical 
care. That is a medical professionals' issue, but from the 
administration----
    Mr. Ruppersberger. I am talking about paperwork issues, 
which is what you testified to.
    CWO Shuttleworth. From a personnel/administrative 
standpoint----
    Mr. Ruppersberger. Right.
    CWO Shuttleworth [continuing]. As far as soldiers dropping 
off orders and dropping out of pay, I believe that we have 
fixed that problem. There are still some accountability issues 
within the system that we are still trying to get our hands 
wrapped around, but I believe that we have about a 99 percent 
accountability of those Reserve Component soldiers that we 
didn't have before. So we are improving the process. We may not 
be there yet, but we are about 90 percent there.
    Mr. Ruppersberger. OK. Well, in my opening statement I 
talked about a bill that we are still attempting to work. I 
really would like to meet with you and maybe Sergeant Forney to 
get further information.
    Just one question, though. You say the paperwork system 
seems to be doing better. That is why we are here. That is why 
we want to move forward. How about the system entirely, not 
just Walter Reed? Do you have any knowledge of other problems 
that are out there? Since Walter Reed has gone a long way in 
relation to paperwork, that should be a model for the other 
areas.
    CWO Shuttleworth. Well, the good news is that when we fixed 
the system we didn't just fix Walter Reed. We looked at 
everybody. So when we started fixing the program, we fixed the 
entire program. When we developed the MRP process, it was for 
the entire Army and not because of what was happening at Walter 
Reed at the time. So we really have wrapped our arms around the 
whole thing, and the whole thing is being fixed at the same 
time, rather than one piece at a time.
    Mr. Ruppersberger. You feel it is beyond just Walter Reed 
then?
    CWO Shuttleworth. It was, yes.
    Mr. Ruppersberger. Mr. Kutz, the questions that I am going 
to present to you are questions about solving the problem, I 
mean, our whole system, the priority of funding, our technology 
and how we are using it. One of the things, it seems to me, the 
problem is that it all starts at the top, and upper-level 
management has to hold middle-level management accountable for 
the follow-through and it just hasn't happened. That was your 
testimony all day through. We have to start at the top, see 
what the system is, make sure the resources are given, and hold 
the people accountable so that this will not happen.
    Thank you all for being here to day.
    Chairman Tom Davis. Thank you.
    Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. First of all, Mr. 
Chairman, let me thank you for holding this hearing today and 
all of these witnesses for coming here. This is an unbelievable 
issue. I shouldn't say unbelievable. I suppose we should be 
shocked by some of the testimony, but unfortunately we are not. 
We do recognize that this is a problem, perhaps a manifestation 
of the high degree of the amount of people, Guard and Reserve, 
that we have as a component of the total force in today's world 
and today's military.
    But, you know, at a time when our country is successfully 
prosecuting the war on terror, at a time I think when our 
country is needing to be so focused on recruitment and 
retention and these kinds of things, the testimony that we have 
heard today is certainly distressing. It does call for action 
by the Congress, by the DOD, and, as the chairman has said, 
that is something that our committee I think can very much be a 
conduit of as we investigate some of these different 
situations.
    I have a question for General Byrne. Let me preface the 
question by telling you a bit. In my particular Congressional 
District we have what is known as Selfridge Air National Guard 
Base, which is a unique kind of facility in the inventory of 
the Guard, as you know. It is unusual, the exception rather 
than the rule, that the Guard would actually own a base, own 
the real estate. They do. Normally they are an appendage off of 
a commercial airport or something, and of course the armories. 
We have all of that also.
    But we have at this particular base every facet of the 
military represented there, not only the Air Guard, but the Air 
Force Reserve, the Marines, the Navy. It is not only a critical 
component in the recruitment in an urban area, of course, but 
it has been a major deployment area as we are in theater here 
for the Guard and Reserve forces. In fact, my husband, after 
having served as a fighter pilot in Viet Nam in the Air Force, 
finished his military career as a Air Reserve, Michigan Air 
National Guard Reserve officer. He was the base commander 
there.
    I will tell you one of my other committee assignments is 
also serving on the House Armed Services Committee, and so, as 
the chairman has said, our committee also has been looking at 
some of these kinds of problems.
    To the extent that in our last Defense authorization, 
reauthorization bill, we actually titled it ``2004, the Year of 
the Troops.'' With all of the tremendous expenditures our 
country does make on armaments and various systems, there is no 
second, obviously, for our troops. So we were very pleased to 
have as a component of the Defense Reauthorization Act a real 
emphasis on creating parity for the Guard and Reserve to the 
active duty. As one of you mentioned, the bullet doesn't know 
if it is hitting an active duty or a Guard or Reserve. I think 
that was you, Sergeant Allen. That is so true.
    We have had, I won't say huge strides, but we made a lot of 
improvements last year in having parity, I think, between the 
active duty and the Guard and Reserve, not only with pay, but 
with commissary privileges. One of you mentioned about 
commissary privileges. As you know, previously you could only 
go once a month, which is crazy. Actually having parity with 
all of this is so important, as well.
    And, of course, as we mentioned, now if you go and look in 
theater, in the high 30 percentile is the component you will 
find of our Guard and Reserve, whether you are in Iraq, 
Afghanistan, Uzbekistan, what have you. Many of the Guard and 
Reserve, unfortunately perhaps maybe for them, have such a 
tremendous skill set that they are called for longer 
deployments, depending on what the mission is there. We are 
finding that those kinds of things are happening with extended 
tours.
    That is a sort of long lead-up to the question, General, 
but I actually have a unit coming home to our base tomorrow, I 
believe, that has had some similar instances that you have 
articulated a little bit in your testimony, as well, to some of 
your Reserve units. It is a group that actually--there was also 
a newspaper article about them. They process through Fort 
Bliss.
    We actually had called the processing personnel from our 
office and said we were going to send a person down there to 
make sure that these Guard and Reserve, as they were coming 
back home, that their needs were being met, etc., and that we 
weren't absolutely convinced because they had a bad experience 
as they began their deployment, quite frankly, not having--I 
won't go into all the details, but similar to what you have 
found with some of your units, perhaps, in Oregon there.
    I would ask you, General, do you think that the respective 
adjutant generals--my adjutant general for Michigan is General 
Tom Cutler. Now, he is a blue-suiter. I hope you won't hold 
that against him. But is it possible for the adjutant generals, 
as we are calling on all of our Guard and Reserve forces in the 
universe or in the Nation to do more, is it possible for the 
adjutant generals to have a more forceful role perhaps as a 
fraternity in making sure that their units--and I also 
appreciate the chairman's comments, which you said you were 
told that your troops were no longer a concern of yours now 
that they weren't active duty and how outrageous that comment 
actually is.
    How can the adjutant generals perhaps be a more effective 
conduit to making sure that as your units are called up, as 
they begin deployment, as they are processed into theater and 
then all the way through their deployment and coming home, is 
there something else that the AGs could do or that Congress 
could help you to do?
    General Byrne. I am sure that each of the adjutant generals 
takes a very profound interest in deploying and redeploying 
their units, whether they are Army or National Guard, Air 
Force. I know that they advocate for their personnel. Also, 
there is an organization, the Adjutant General Association of 
the United States, which also collects commonalities and works 
through those. I know that organization works very hard to 
develop agendas and items related to deployment and re-
deployment. So we do work it.
    Mrs. Miller. I mean, I think you have to. I am sure that 
every AG across the Nation shares your consternation, if they 
are getting those kinds of answers. My adjutant general has 
never mentioned anything quite like that, but there is a 
different culture, I think, and so I wondered about that.
    Thank you. And thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. General Byrne, you provided a list of 84 of your 
soldiers that are now in medical hold status. Of the 84, 73 
have been in longer than the current reported Army standard of 
67 days, 35 of them have been in longer than 6 months. Is this 
the standard you have found?
    General Byrne. I would like to let Dr. Eliason answer the 
question. This is his area. He follows a lot better.
    Mr. Shays. Sure. I thought all you were going to say is no.
    Colonel Eliason. Well, sir, I can't speak to the Army 
standard. When soldiers are put in medical holdover, under the 
MRP processing there is supposed to be a determination made 
relatively early whether they can eventually return to theater, 
which I suspect is where the 67-day rule is.
    Our major concern is getting our soldiers home. What we 
would like and what we have asked and, quite frankly, what has 
improved markedly in the last year is getting them into 
programs like community based health care organizations. Their 
length of treatment is their length of treatment. People heal 
as they heal. But the sooner we get them home, we believe they 
are going to heal better, and so that is our push--as rapidly 
as possible getting them returned to their State for care, 
where they are living in their own home with their family and 
their support system around them.
    Mr. Shays. That is your answer?
    Colonel Eliason. Yes, sir.
    Mr. Shays. Well, frankly, this is an old story, and it is 
shocking except it is an old story, which kind of makes it even 
more shocking. I am pretty convinced that in Congress we have 
tried to put enough focus on this to embarrass a solution, and 
yet that doesn't seem to work. So I am somewhat lost for why 
this continues to persist, and I am just wondering if any of 
you could suggest to me why it continues to persist.
    I would like, Mr. Kutz, for you to tell me why you think it 
persists.
    Mr. Kutz. You are talking about the Medical Board process? 
I am not familiar with that, so I can't really comment on that. 
I mean, we heard from the soldiers that we talked to that had 
the MRP problems and the medical extension problems that they 
were in hold waiting for the Medical Boards for hundreds of 
days in some cases, and that is about all the knowledge that I 
would have on that.
    Sergeant Allen. Sergeant Allen, sir. I think it is a 
serious lack of leadership ability in the mid-level command. 
People aren't willing to step up to the plate and just do what 
is necessary. If something is identified that is wrong, then it 
needs to go away. What has perplexed me this whole time living 
this nightmare is how could something be so wrong and continue 
to go on and on and on and just keep perpetuating itself? It is 
generation after generation.
    A perfect example, I just went to get my orders to out-
process and they were wrong and they had me as a specialist in 
the Army. I talked to my friend that got out 2 months ago and I 
said, ``I can't believe this. I feel like I am the first guy to 
go through this.'' His name is Ryan Kelly, and he said, ``Well, 
that is funny, because I thought I was the first guy 2 months 
ago to go through it.'' And so I think it is a serious lack of 
people just stepping up to the plate and coming up with a 
solution. I think if somebody can come up with a solution, then 
it would be implemented and there wouldn't be the problem.
    Mr. Shays. See, usually what happens in something like 
this, when Congress decides that we are going to conduct a 
hearing on it, it is such a shameful thing that people start to 
take action. Sometimes the problem is resolved before we even 
have a hearing. In this case, this is not the first hearing and 
the problem continues. That is what I find, frankly, a bit 
discouraging. It clearly has to be the stovepipe nature of it, 
and no one taking responsibility.
    Sergeant Allen. To add to that, sir, some very senior high 
people in DOD and the Army have been trying to help us, the 
guys that aren't getting paid, aren't getting orders. I mean, 
the one-star, two-star, three-star generals, people over at 
DOD, and you would think that would encourage things to be 
changed, but there again, you know, it is got to be in the mid-
command level of the philosophy, command philosophy as a whole, 
which is what I put in my testimony, that people, they don't 
take the time to care.
    Mr. Shays. My conclusion is it is just not a priority of 
DOD. That is the only conclusion I can get.
    If I told my Dad when I was young, ``Well, I forgot,'' he 
would say to me, ``If I gave you $100, you wouldn't have 
forgotten.'' It was a clear message to me. In other words, if 
it had been a priority, I wouldn't have forgotten. And in the 
case of DOD, this has been a longstanding problem. We have too 
many of our Reservists and National Guard risking their lives, 
and they get treated like dirt. That is the bottom line.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Yes. Thank you very much.
    Ms. Norton.
    Ms. Norton. I just have two short questions. My colleague 
from Connecticut is pressing toward a remedy when he says why 
has this gone on so long, and I just want to understand what 
the testimony here has been with respect to remedy. Do I 
understand--and perhaps it was General Byrne--that you endorse 
the notion of some form of ombudsman attached to these 
companies that would perhaps do some of what, or at least bring 
to earlier attention some of what we have heard about in these 
work-around procedures I think that GAO reported where people 
are in an ad hoc business running around trying to straighten 
these out.
    I am asking would an ombudsman help that. And I am also 
asking Officer Shuttleworth whether he would endorse the 
notion, whether it would help his work now that he says this 
has been centralized with him, to have an ombudsman connected 
to these holding companies.
    First General Byrne.
    General Byrne. Ms. Norton, yes, a neutral party, someone 
who is educated in the process that can, one, explain and, two, 
be an advocate for the individual as they go through the 
process.
    Ms. Norton. Do you endorse that notion, Officer 
Shuttleworth?
    CWO Shuttleworth. We can use all the help we can get. I 
will tell you that as far as the comment on the Medical Board 
process a while ago, understand that prior to September 11th 
the amount of Medical Boards that were pushed through for 
Reserve Component soldiers in a year was very low, sometimes 
not even 100. If you look at the statistics from prior to that, 
what happened--and the liaison offices for those medical 
facilities are staffed with civilian employees, and not very 
many of them, I will tell you, to work with the active Army 
soldiers that get hurt.
    So after September 11th trying to push 400 and 500 boards 
through every 3 months or 4 months on a Guard or Reserve 
soldier is just overburdening the system. That is why there are 
in my testimony 80 NCOs out there at treatment facilities who 
have Guard and Reserve experience to help these soldiers with 
that.
    So to have someone else out there helping us? Absolutely. 
We can use anything that we can get in order to get these 
soldiers through the system timely and fairly.
    Ms. Norton. Mr. Chairman, I wouldn't want it to go 
unnoticed, because I think this comes out of the hearings you 
have held, the GAO report you ordered, not only the notion this 
notion of ombudsman is endorsed here, but also I would not want 
to go unnoticed what, again, Officer Shuttleworth said here 
today. I believe that has come out of your work in this 
hearing, where he announced that 2 days ago they centralized 
these concerns for processing in his branch, and therefore we 
are going to look to that person in charge now for improvements 
on the theory that it will help the process.
    One final question. It was very compelling testimony about 
what we in civilian life call post traumatic problems or 
syndrome, very, very disturbing. I wonder whether somebody 
could tell me whether or not in this war and other wars that 
qualifies for disability or if it should qualify for 
disability.
    CWO Shuttleworth. I believe that on the next panel there is 
a colonel from the Physical Disability Agency.
    Ms. Norton. Thank you. I will ask them.
    Chairman Tom Davis. Can I just say thank you to all of you. 
Sergeant Allen and Sergeant Perez, very, very compelling 
testimony. I think the Members were very moved by it. Let me 
thank your wives, who have had to stick through this thing. 
This has been a family issue for a long time, and we appreciate 
your loyalty. You are all heroes and heroines in my book.
    To Mr. Shuttleworth and Sergeant Forney, you tried to be 
ombudsmen, but we have a system right now that just really 
doesn't embrace that concept. Maybe we ought to formalize it a 
little bit.
    General Byrne, thank you for your continued concern for 
your troops there. I think what you have shown is that it is a 
systematic problem, just in terms of the troops go from you to 
the Federal system, the Federal system says, ``It is not your 
concern, it is ours,'' and then they don't take care of them. I 
mean, what are you supposed to do?
    And Mr. Kutz, you laid the groundwork in your report, you 
and your team. We want to thank you for that. Hopefully we can 
limit the damage in the future because of what people have been 
able to come forward with today and testify to, so this is not 
in vain. It is important, and we appreciate it.
    I will dismiss this panel and move on. We will take a 1-
minute recess and move on to the next panel. Thank you very 
much.
    [Recess.]
    Chairman Tom Davis. We welcome our second panel. I want to 
thank them for taking the time from their schedules to come 
today.
    We have Ms. Ellen Embrey, the Deputy Assistant Secretary of 
Defense for Employment Health from the U.S. Department of 
Defense; Daniel Denning, Principal Deputy Assistant Secretary 
of the Army for Manpower and Reserve; Lieutenant General 
Franklin Hagenbeck, the Deputy Chief of Staff, G-1, U.S. Army; 
Lieutenant General Kevin Kiley, M.D., U.S. Army Surgeon 
General; Major General Charles Wilson, Deputy Commander, U.S. 
Army Reserve Command; and Mr. Philip Sakowitz, who is the 
Deputy Director, U.S. Army Installation Management Agency.
    It is our policy that all witnesses be sworn, so please 
rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much for being with us 
today. I think you have heard the first panel and I think we 
agreed you wanted to go after the first panel, give them an 
opportunity to air some of the problems that we have 
encountered.
    We have a 5-minute rule. We were a little lax on it in the 
first panel. We wanted to give some of the people just an 
opportunity to tell the whole story. We will try to ask you to 
be a little more accommodating of it.
    We have votes that could come up at any time, and it is my 
intention, if votes come up, to move straight through the 
panel, and I will stay as long as I can and then let Ms. Norton 
finish with votes, give her questions, and then close the panel 
at that point and recess, if your time permits, until after 
votes, and then we would come back and the rest of us ask 
questions. Ms. Norton would be able to go ahead with her 
questions. We have done that before. Unfortunately, we are 
allowed to do this because Ms. Norton doesn't get a vote on the 
House floor, something that Mr. Shays and myself are trying to 
rectify. I just wanted to add that.
    Ms. Embrey, we will start with you. Thank you for being 
with us.

   STATEMENTS OF ELLEN EMBREY, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR EMPLOYMENT HEALTH, DEPARTMENT OF DEFENSE; DANIEL 
 DENNING, ACTING ASSISTANT SECRETARY OF THE ARMY, MANPOWER AND 
   RESERVE AFFAIRS, ACCOMPANIED BY LIEUTENANT GENERAL ROGER 
  SCHULTZ, DIRECTOR, ARMY NATIONAL GUARD; LIEUTENANT GENERAL 
 FRANKLIN L. HAGENBECK, DEPUTY CHIEF OF STAFF, G-1, U.S. ARMY; 
  LIEUTENANT GENERAL KEVIN C. KILEY, M.D., U.S. ARMY SURGEON 
 GENERAL; MAJOR GENERAL CHARLES WILSON, DEPUTY COMMANDER, U.S. 
   ARMY RESERVE COMMAND; AND PHILIP E. SAKOWITZ, JR., DEPUTY 
      DIRECTOR, U.S. ARMY INSTALLATIONS MANAGEMENT AGENCY

                   STATEMENT OF ELLEN EMBREY

    Ms. Embrey. Thank you, Mr. Chairman and distinguished 
members of this committee. I appreciate the opportunity to talk 
today about the force health protection programs in the 
Department and how they impact the care that we provide to 
wounded service members. I want to reiterate that the 
Department is firmly committed to protecting the health of our 
active and Reserve Component members before deployment, while 
they are deployed, and, of course, upon their return.
    I am pleased to join my colleagues today on this panel to 
address your specific concerns regarding the care for soldiers 
injured in Operations Enduring Freedom and Iraqi Freedom. Today 
I will outline the Department's current management practices, 
technological advances, and initiatives underway to address 
this very important issue, with a particular focus on the Army 
Reserve components.
    With your permission, Mr. Chairman, I would like to submit 
my written testimony for the record and then just discuss----
    Chairman Tom Davis. Let me note, everyone's entire written 
testimony is in the record and is a part of it, and questions 
will be based on the entire, so it will allow you 5 minutes to 
kind of accent what you want.
    Thank you.
    Ms. Embrey. Terrific. Thank you.
    As you know, the global war on terrorism is the largest 
ongoing mobilization of the Reserve Component since World War 
II. In fact, since September 11, 2001, approximately 475,000 
Reserve Component members have been mobilized to support the 
global war on terrorism. Of those mobilized, 376,000, or 
roughly 79 percent, of the Army Reserve Component were 
mobilized.
    Virtually all operations yield lessons learned, and our OIF 
and OEF experience has been no different. Early on we 
recognized that many rules and procedures that worked well for 
smaller mobilizations of shorter durations are very well 
unsuited for a large and prolonged mobilization that we are 
currently experiencing in OIF and OEF.
    The Department and the services recognized these shortfalls 
and undertook several initiatives over the last 2 years to 
improve the medical readiness of the force overall and the 
Reserve Components in particular. These include: establishing a 
deployment health quality assurance program, establishing 
individual medical readiness standards for the total force, 
refining and expanding the post-deployment health assessment 
screening processes, establishing ability to capture 
electronically the pre- and post-deployment assessment 
information so that it could be used by medical professionals 
later on. And finally, since November 2003 we have routinely 
monitored and reported to the Secretary of Defense and the 
Under-Secretary for personnel and readiness the status of 
service members in a medical hold status.
    The Army, with the majority of the total mobilized force, 
has taken very seriously its responsibility to provide world 
class care to the Army's sick and injured combat veterans. They 
recently have taken several initiatives to enable the Reserve 
Component soldiers in the medical hold status to receive 
treatment and recuperate at or near their homes when 
appropriate care is available locally.
    These ongoing efforts have resulted in significant 
improvements, but we recognize that there is still much work to 
do. We are exploring new initiatives to further enhance medical 
readiness and to ensure timely and effective care of 
deployment-related illnesses and injuries. These include: 
establishing a standard annual periodic health assessment 
program applicable to the total force; working with the VA to 
identify better ways to leverage specialty care capabilities 
that they have to support our service members' needs, 
especially for Reservists; investigating options to enhance 
awareness of the health status of Reserve Component members 
over time. We do not have access to their health records as 
civilians, only when they are under our care. And, last, we are 
also working with VA to access medical records of the Reserve 
Component members, help VA get access to those records while 
they are continuing their service to us.
    I would like to also add that we are working to streamline 
the cumbersome line of duty determination process that the 
Reserve Component members have to go through in order to access 
care for illnesses and injury, so we will be working on that.
    Mr. Chairman and members of the committee, I thank you for 
the opportunity to be here, and I defer to the other members of 
my panel to address their particular issues.
    [The prepared statement of Ms. Embrey follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.096
    
    [GRAPHIC] [TIFF OMITTED] T0085.097
    
    [GRAPHIC] [TIFF OMITTED] T0085.098
    
    [GRAPHIC] [TIFF OMITTED] T0085.099
    
    [GRAPHIC] [TIFF OMITTED] T0085.100
    
    [GRAPHIC] [TIFF OMITTED] T0085.101
    
    [GRAPHIC] [TIFF OMITTED] T0085.102
    
    [GRAPHIC] [TIFF OMITTED] T0085.103
    
    [GRAPHIC] [TIFF OMITTED] T0085.104
    
    [GRAPHIC] [TIFF OMITTED] T0085.105
    
    [GRAPHIC] [TIFF OMITTED] T0085.106
    
    [GRAPHIC] [TIFF OMITTED] T0085.107
    
    [GRAPHIC] [TIFF OMITTED] T0085.108
    
    [GRAPHIC] [TIFF OMITTED] T0085.109
    
    Chairman Tom Davis. Thank you very much.
    Dr. Denning.

                  STATEMENT OF DANIEL DENNING

    Mr. Denning. Mr. Chairman, members of the committee, I am 
Dan Denning, Acting Assistant Secretary of the Army for 
Manpower and Reserve Affairs. To my left with me today are 
Lieutenant General Franklin Hagenbeck, Deputy Chief of Staff G-
1; Lieutenant General Kevin Kiley, the Surgeon General of the 
U.S. Army; Major General Charles Wilson, Deputy Commander of 
the U.S. Army Reserve Command; and Mr. Philip Sakowitz, Deputy 
Director of the Installation Management Agency. Also with us 
today is Lieutenant General Roger Schultz, the Director of the 
Army National Guard.
    Thank you for inviting us to discuss the medical holdover 
program. I would also like to thank panel one for their candor 
and for their obvious desire to improve the U.S. Army.
    I would like to take a moment to introduce to the committee 
two more fine soldiers currently in the medical holdover 
program: Staff Sergeant Salvatore Cerniglia, who is an Army 
Reserve soldier from Florida who was wounded during a rocket 
propelled grenade attack in Iraq. He is assigned to the 
community based health care organization in Plant City, FL. 
This program allows him to reside at home and receive his 
medical care locally.
    Sergeant Jamie Brown is an Indiana National Guard soldier--
my home State--who has spent the past 15 months at Walter Reed 
Army Medical Center recovering from wounds he received from 
rocket fire during an ambush. In addition to his status as a 
medical holdover soldier receiving treatment, Sergeant Brown 
has actively assisted the medical holdover company by serving 
as an assistant platoon sergeant.
    Could those soldiers just stand for a moment? You can see 
them in the back.
    Chairman Tom Davis. Thank you very much for being with us.
    Mr. Denning. As you know, the Army continues to face many 
challenges, including the global war on terrorism and the 
continuing operations in Iraq and Afghanistan. In all of this, 
the Army is absolutely committed to taking care of its soldiers 
and families and providing them the best possible health care. 
This is true regardless of whether a soldier is a member of the 
active Army or Reserve Components, and regardless of the nature 
of the soldier's injury or illness, whether it occurred in 
combat or in training.
    The Army continues to intensively manage the health care 
and disposition of Reserve Component soldiers in a medical 
holdover status. My office provides oversight over the medical 
holdover operations and, along with forces command, the 
executive agent for this program, is engaged in monitoring 
effectiveness.
    A system analysis and review team comprised of personnel 
from my office, from FORCECOM, from the Office of the Surgeon 
General, from Human Resources Command, and from the 
Installation Management Agency, has visited and assessed the 
operations at every installation managing medical holdover 
soldiers, and we plan to continue to actively monitor our 
performance in support of soldiers.
    In late 2003, the large number of medical holdover soldiers 
at Fort Stewart and Fort Knox exceeded the capacity of the 
military infrastructure to adequately house and provide 
expeditious medical care management to soldiers assigned to 
these installations. Upon review, we realized this problem was 
not confined to just these installations and immediately 
embarked on a series of actions to address this unacceptable 
situation. In the interest of time today I am not going to 
cover those here. My colleagues will cover it in much more 
detail later.
    Rotation of forces for Operation Iraqi Freedom and 
Operation Enduring Freedom is expected to significantly 
increase the total medical holdover population in the coming 
months. We have taken precautionary actions to ensure this 
surge will not exceed medical command's medical support 
capacity during the third quarter of 2005.
    One of the key initiatives we are currently executing will 
increase our medical support capacity and expand the Army's 
commitment to taking care of soldiers. This is the community 
based health care initiative. It began as a way of providing 
high quality care to Army Guard and Reserve soldiers near their 
homes while maintaining administrative control and relieving 
pressure on Army medical facilities at power projection 
platforms.
    It has also proved itself as a means of providing a way for 
the Army to meet its obligation to provide quality health care 
for Reserve soldiers who require protracted treatment to 
achieve full recovery from their injuries and illnesses and to 
allow Reserve soldiers who are medically able to live at or 
near their homes and families, and finally to leverage sister 
services, VA and civilian health care assets.
    I can state without reservation that the community health 
care initiative has been an unqualified success for soldiers, 
their families, and for the Army. It has evolved into an 
innovative program designed to manage the prolonged health care 
treatment needed by some Reserve Component soldiers in order 
for them to fully recover.
    The community health care initiative ensures that the same 
high standard of care we require for all soldiers is met while 
effectively managing their health care and recovery. It helps 
alleviate stress caused by the separation of soldiers from 
their families by allowing many to reside at home during 
treatment and recovery.
    The original five community based health care organization 
sites managing health care delivery to soldiers in some 23 
States is expanding this month with the addition of Alabama, 
Virginia, and Utah, and with three satellite operations in 
Hawaii, Puerto Rico, and Alaska. These additions, plus 
increases in capacity at our existing five sites, will provide 
for 50-State coverage.
    We will continue to work closely with FORCECOM, the 
Installation Management Agency, Office of the Surgeon General, 
and the Army G-1 to assist in the prompt return to duty or 
release from active duty of our dedicated soldiers who serve 
our country.
    Thank you.
    [The prepared statement of Mr. Denning follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.110
    
    [GRAPHIC] [TIFF OMITTED] T0085.111
    
    [GRAPHIC] [TIFF OMITTED] T0085.112
    
    [GRAPHIC] [TIFF OMITTED] T0085.113
    
    [GRAPHIC] [TIFF OMITTED] T0085.114
    
    [GRAPHIC] [TIFF OMITTED] T0085.115
    
    [GRAPHIC] [TIFF OMITTED] T0085.116
    
    Chairman Tom Davis. Thank you very much.
    General Hagenbeck.

     STATEMENT OF LIEUTENANT GENERAL FRANKLIN L. HAGENBECK

    General Hagenbeck. Mr. Chairman and members of the 
committee, it is a great opportunity and I appreciate being 
invited here this afternoon to talk about this very important 
topic. It is essential for the Army in both maintaining the 
morale and the welfare of our soldiers who serve this grateful 
Nation.
    As you know, the Army will continue to be deployed 
worldwide. We currently have 640,000 soldiers serving on active 
duty, and of those, 315,000 soldiers are deployed for overseas 
in over 120 different countries. These soldiers are from all 
the components, active duty, 155,000, our Army National Guard, 
113,000, our Army Reserve, 47,000. Even with this expansive 
rotation of troops, the soldier remains the centerpiece of the 
Army formations, and as such it is the Army's pledge to remain 
dedicated to the well-being of the soldiers and their families.
    Since the beginning of the global war on terrorism, we have 
witnessed the largest mobilization of the Reserve Component 
since World War II. The exemplary performance of the Guard and 
Reserve soldiers alongside that of the active component is 
testimony that we are, indeed, one Army, an Army whose 
components explicitly link and complement each other. I know 
our Nation is very proud of the performance of our Guard and 
Reserve folks, and you have seen them firsthand both at home 
and on these contingency missions, and I know that you are as 
equally proud of them.
    These soldiers deserve our continued commitment to training 
them to do their jobs and taking care of them and their 
families throughout their association with the Army. This 
includes providing the best care available to soldiers who 
become injured or ill in the line of duty while serving our 
country.
    Though this effort has not been without challenge, we 
continue to improve our processes and strive to deliver 
compassionate and timely care to the medical holdover soldier. 
The soldiers reporting to mobilization stations and returning 
from the theater to the evacuation chain or demobilizing, the 
medical holdover population grew quickly. In the midst of 
supporting the war fight, we realized that existing MHO policy 
and infrastructure were inadequate, and we immediately embarked 
on a series of corrective actions.
    As the G-1, I am the proponent for the active duty medical 
extension program and am responsible for its implementation, 
policy execution, and program management. The medical retention 
processing program is an Assistant Secretary of the Army 
Manpower and Reserves policy, but I am responsible for its 
implementation of guidance and the execution of the policy. And 
the medical retention processing two program is also Acting 
Secretary Denning's program. It is still being staffed for 
approval, but upon that process being concluded I will be 
responsible for its implementation, guidance, and execution of 
the policy once the program, as I mentioned, is finally 
approved.
    Today we are processing large numbers of soldiers with 
disabilities, the likes of which we haven't experienced in over 
30 years. In 2004 we processed approximately 15,000 disability 
cases, nearly a 50 percent increase from the number of cases 
processed during the years before G-1. We are witnessing an 
even higher percent increase in the number of mobilized Army 
Guard and Reservists entering into the disability system, 134 
percent increase during fiscal year 2004.
    Now, to meet this caseload we have added additional members 
to the three physical evaluation boards, we have increased the 
number of JAG officers assigned, we have created a mobile PEB, 
a three-member board that travels to each of the fixed PEB 
sites to augment their efforts there, and we placed liaison 
NCOs at each of the medical treatment facilities and at the 
Physical Disability Agency headquarters to assist in processing 
Reserve and National Guard cases.
    These efforts have paid off. In June 2004 there were 900 
mobilized Reserve and National Guard cases pending PDA, and 
today that number has been reduced to 344. PDA still receives 
about 159 new mobilized Reserve and National Guard cases each 
month. While much has been accomplished, more needs to be done. 
Acting in concert with the U.S. Army Medical Command and the 
Installation Management Agency under the direction of the 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs, the following initiatives are underway: Structuring a 
comprehensive reporting system that tracks the soldier as he or 
she is medically evacuated from the area of operations until 
returned to duty or separated or retired from the U.S. Army. A 
high priority, this task force will present its initial 
recommendations to the Director of the Army staff within the 
next 2 weeks.
    Second, as part of the information gathering and sharing 
enterprise, we are working closely with the Department of 
Veterans Affairs and the Defense Finance Accounting Services to 
better coordinate the termination of military pay and the 
initiative of Veterans Administration payments. An important 
linkage to this process is access to the Reserve Component 
soldiers' personnel documents for the calculations of retired 
and severance pay, and efforts are ongoing to bring automation 
solutions to this process.
    Through weekly reports, inspections, and personal visits, 
the Army is keeping a close watch on the processing of the 
soldiers through the PDE system. Though we have challenges 
ahead, I am confident that we are taking the right path, the 
right direction to do this.
    I will tell you that I am personally committed. Sergeant 
Allen, who was on panel one, was serving with me in Afghanistan 
when he was injured. I have a son who is a Reserve officer in 
the U.S. Army Reserves who was deployed once to the Gulf and is 
alerted to do again. So beyond my professional interest in this 
I have a personal interest and responsibility, as well.
    Thank you, ma'am.
    [The prepared statement of Lieutenant General Hagenbeck 
follows:]

[GRAPHIC] [TIFF OMITTED] T0085.117

[GRAPHIC] [TIFF OMITTED] T0085.118

[GRAPHIC] [TIFF OMITTED] T0085.119

[GRAPHIC] [TIFF OMITTED] T0085.120

[GRAPHIC] [TIFF OMITTED] T0085.121

[GRAPHIC] [TIFF OMITTED] T0085.122

[GRAPHIC] [TIFF OMITTED] T0085.123

[GRAPHIC] [TIFF OMITTED] T0085.124

[GRAPHIC] [TIFF OMITTED] T0085.125

[GRAPHIC] [TIFF OMITTED] T0085.126

    Ms. Norton [presiding]. Thank you, General.
    Lieutenant General Kiley, 5 minutes.

      STATEMENT OF LIEUTENANT GENERAL KEVIN C. KILEY, M.D.

    General Kiley. Thank you, Mr. Chairman and distinguished 
members of the committee. I appreciate the opportunity to make 
a couple of opening comments.
    I would like to start by echoing the comments of the rest 
of the panel in thanking the soldiers that sat on panel one for 
their courage, their honesty, and for helping us in the U.S. 
Army Medical Command and the rest of the Army to make this 
process better and more effective. We are very proud of those 
soldiers. Every one of them has put a uniform on and reported 
to the deployment station, and we feel that pride when we care 
for those soldiers upon their return from combat, either as 
injuries or as illnesses.
    In that context, I think it is important to remember that, 
as has been stated, this is a medical support to a global war 
on terrorism that is not just about medical holdover soldiers 
but about casualty receiving and the deploying and re-deploying 
and demobilizing of large numbers of Reserve and National 
Guard.
    I am very proud of the members of the U.S. Army Medical 
Command, of the larger AMED, active and Reserve, that have 
participated in and cared for these great soldiers in their 
time of need. We have processed over 16,000 soldiers through 
the medical holdover process, 9,000 of which we have returned 
to the Army fit and healthy, another 5,000 of which have 
successfully negotiated the MEB/PEB process. And in doing that 
we have learned a great amount about the PEB process, Reserve 
and National Guard policies, and our own operations at our 
installations and MTFs.
    I am happy to answer any more of your questions either from 
these comments or from my written statement.
    Thank you.
    [The prepared statement of Lieutenant General Kiley 
follows:]

[GRAPHIC] [TIFF OMITTED] T0085.127

[GRAPHIC] [TIFF OMITTED] T0085.128

[GRAPHIC] [TIFF OMITTED] T0085.129

[GRAPHIC] [TIFF OMITTED] T0085.130

[GRAPHIC] [TIFF OMITTED] T0085.131

    Ms. Norton. Thank you very much, General Kiley.
    Major General Wilson.

           STATEMENT OF MAJOR GENERAL CHARLES WILSON

    General Wilson. Chairman Davis, members of the committee, I 
am Major General Charles E. Wilson, Deputy Commanding General 
for the U.S. Army Reserve. Thank you for inviting me to appear 
before your committee to discuss the effectiveness of Army 
medical administrative and support processes and procedures 
that govern injured Army Reserve soldiers.
    During the past months, the U.S. Army Reserve Command and 
its leadership has listened to the concerns of all of its 
soldiers, especially injured Army Reserve soldiers and their 
families. This command has explored ways to provide the best 
health care possible, to improve administrative processes for 
the soldiers and their family, before, during, and after 
mobilization.
    Since we know the combat and commander need a force that is 
medically fit, ready, and responsive, the Army Reserve has 
placed greater stress and scrutiny on management of medical 
readiness. We have worked hard to update our policies and 
procedures to create efficiencies, to develop compassionate and 
effective strategies for supporting our soldiers and their 
families as they prepare for war, as they wage war, as they 
endure the separation and the worry and stress that accomplish 
this as a family unit.
    We work hard on the return home to address the challenges 
and stress of family and community reintegration. Our solutions 
are still being realized and perfected. They remain very much a 
work in progress. You, as a committee, have been concerned and 
supportive during this very trying period. With your help, we 
will succeed in meeting our mission and also providing our Army 
family with all it needs and deserves as we serve our Nation at 
war.
    Again, thank you for this opportunity to discuss the health 
care and well-being of our soldiers and their families. I will 
be happy to answer any questions that you may have.
    Thank you.
    [The prepared statement of Major General Wilson follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.132
    
    [GRAPHIC] [TIFF OMITTED] T0085.133
    
    [GRAPHIC] [TIFF OMITTED] T0085.134
    
    [GRAPHIC] [TIFF OMITTED] T0085.135
    
    [GRAPHIC] [TIFF OMITTED] T0085.136
    
    [GRAPHIC] [TIFF OMITTED] T0085.137
    
    Ms. Norton. Thank you very much, General Wilson.
    Mr. Sakowitz.

              STATEMENT OF PHILIP E. SAKOWITZ, JR.

    Mr. Sakowitz. Mr. Chairman and members of the committee, I 
am Phil Sakowitz, the Deputy Director of the U.S. Army 
Installation Management Agency. I thank you for the opportunity 
to discuss our contribution to the medical holdover program.
    On a daily basis we are responsible for the equitable, 
efficient, and effective management of installations worldwide, 
but we are particularly honored by our role in support of 
injured soldiers and their families. Our headquarters and 
region staffs, in close cooperation with Forces Command and the 
1st and 5th Armies, as well as the staffs of my fellow panel 
members, oversee our medical holdover effort. Together we 
monitor the current and projected medical holdover populations 
assigned to each installation to determine if current capacity 
levels for command and control and billeting are sufficient, 
and, if not, what steps we need to consider to mitigate the 
situation.
    The Installation Management Agency has supported over 3,000 
injured Guard and Reserve soldiers in the medical holdover 
program at any one time at 36 installations in the continental 
United States, Alaska, Hawaii, and Puerto Rico. Our specific 
roles and responsibilities fall into three areas: command and 
control of medical holdover soldiers, billeting, and transition 
processings. Let me very quickly review these three areas of 
support.
    Each installation with a significant medical holdover 
population now has a dedicated command and control unit called 
a medical retention processing unit. This unit is under the 
oversight of our garrison commander, who is ultimately 
responsible for the installation medical holdover program. 
These units are commanded by a commissioned officer and provide 
soldiers with leadership and basic administrative and 
logistical support. From the time the soldier is in-processed 
to the time the soldier is out-processed we ensure we address 
the soldier's needs. This ranges from daily requirements for 
food and shelter to assisting with legal assistance, religious 
support, and transportation to and from medical appointments.
    The units work closely with the medical team to monitor the 
well-being of the soldier and track progress through the 
medical retention process. The bottom line: the basic 
responsibility of this unit is no different than any other--
accomplishing their mission while caring for soldiers and 
families.
    We also take our responsibility for billeting soldiers very 
seriously and continually improving their status. Today all 
medical holdover soldiers are provided with a safe, secure, 
climate controlled room with inside latrines and accommodations 
for their medical conditions as needed. This is the standard. 
To meet these standards, we house soldiers in on-post barracks. 
When that type of accommodation is not available, we use 
temporary relocatable buildings designated for medical holdover 
soldiers, or Army on-post transient lodging, or off-post 
hotels. Billeting medical soldiers is and continues to be a 
high priority.
    Our last area of support is in transition processing, which 
is performed at each installation transition center. These 
centers process soldiers for retirement, return to Guard or 
Reserve status, or return to civilian life. The Army standard 
is to out-process these soldiers not later than 30 days after 
receipt of orders. To get there we added 24 support personnel 
across 13 key installations. However, we have not only met 
these standards but today our Installation Management Agency 
transition centers are out-processing soldiers in 16 days. This 
is a good news story and we are continuing to work to improve 
these times.
    I want to assure the committee that the Installation 
Management Agency remains fully committed to support the 
medical holdover program.
    Once again, thank you for the opportunity to address you, 
and I will answer any questions at this time.
    [The prepared statement of Mr. Sakowitz follows:]

    [GRAPHIC] [TIFF OMITTED] T0085.138
    
    [GRAPHIC] [TIFF OMITTED] T0085.139
    
    [GRAPHIC] [TIFF OMITTED] T0085.140
    
    [GRAPHIC] [TIFF OMITTED] T0085.141
    
    [GRAPHIC] [TIFF OMITTED] T0085.142
    
    [GRAPHIC] [TIFF OMITTED] T0085.143
    
    Chairman Tom Davis [presiding]. Let me start. You heard the 
testimony in the previous panel. I read an article in the 
``Orlando Sentinel'' on Sunday that tells of 15 wounded or 
injured Guardsmen who arrived at Fort Stewart, and they have 
been blocked from seeking medical treatment at home under the 
community based health care initiative that we have just heard 
touted here. An Army colonel in Army Forces Command in Atlanta 
states that the reason is a very complex budget and statutory 
problem all wrapped up in legalese.
    I want to refer you to these three charts over here that 
display the offices involved, the medical administration 
process involved in the Guard and Reserve and the processes, 
themselves. I mean, it looks--I think I am pretty competent, 
guys, a lawyer, and I spent 8 years in the Guard, but it looks 
pretty complicated.
    I mean, who is getting these people through these mazes? It 
is no wonder people are falling through right and left. I know 
everybody is trying, but we end up, instead of a mission driven 
Government here, just wrapped up in rules and regulations, and 
the result is what we see. In wartime, it has just almost been 
embarrassing. I think you all would agree to that. I think we 
are all trying to fix it.
    I guess my first question is: what do we do for these 15 
people in Florida? And how did this all happen?
    Dr. Denning, let me start with you.
    Mr. Denning. Sir, my university would be happily surprised, 
I suppose, if I was really a doctor, but I am not.
    Chairman Tom Davis. That is what it says on there.
    Mr. Denning. I know. My Mom would appreciate it.
    Chairman Tom Davis. Well, congratulations. We held a 
hearing on diploma mills a couple weeks ago. I can get you up 
there pretty quick for $15.
    Mr. Denning. I may need to take you up on that.
    Sir, I will give you an alibi, I guess, or plead guilty. 
No. 1, we have a medical system in my judgment and a set of 
processes that were sized for a peacetime Army and we are 
fighting a two-front war right now, indeed, a worldwide war, 
and it is loading our systems like they haven't been loaded 
since World War II.
    Chairman Tom Davis. Correct.
    Mr. Denning. No. 2, some of our processes were simply not 
designed to handle large numbers of mobilized soldiers. The 
ADME process you have heard about, for example, was designed to 
take care of soldiers injured during their 2 weeks of active 
duty a year. It took us, frankly, some time to realize the 
system was under strain and breaking, and it took those stories 
in late 2003 from Fort Stewart. But the Army really swung into 
motion there.
    Are there the stories you heard this morning? Every one of 
them I am absolutely certain is true, and your heart goes out 
to those soldiers and their families. I think we have addressed 
these. That is why you heard about medical readiness 
processing. Those charts you have over there, it is a complex 
process. Caring for soldiers, managing their care, taking care 
of their finances, shifting them between the kinds of orders 
that the statutes require us to work under is a complex 
process. I think we have it about to the point now that it will 
work very well in the future.
    Will there be problems? I am sure there will be some----
    Chairman Tom Davis. I was in the Guard. I understand a 
little bit how it works. You call these soldiers up. They go 
into basically Federal service by going abroad, and at that 
point why don't they just stay on that payroll until they are 
discharged and sent back to their units? Once they come back 
and they are injured, you ought to just keep them and give them 
all the Federal benefits. What is so complicated about that? 
What am I missing here?
    Mr. Denning. Well, first of all, sir, the soldiers are 
mobilized under partial mobilization authority, involuntarily 
mobilized, 12-302.
    Chairman Tom Davis. I understand. I mean, we can make 
this--I was a lawyer. I understand how this stuff gets written. 
But once they are over there, they are fighting side by side in 
many cases----
    Mr. Denning. Yes, sir.
    Chairman Tom Davis [continuing]. With regular military 
personnel. I have been over to Iraq several times. I understand 
that you can't tell the difference, and certainly the enemy 
can't tell the difference when they are shooting at them or 
putting something on the side of the road. So why not, before 
they come back, if they are ready to go back to their unit that 
is easy; otherwise, just keep them under some kind of Federal 
purview where they get the commissary and they get the PX and 
they get the medical and everything else? Why is it so 
complicated?
    Mr. Denning. Many soldiers, sir, when they are Med-Evac'ed, 
they stay on their mobilization orders. Their pay systems 
aren't affected. Their benefits aren't affected. Nothing 
changes. When we hit that 24-month brick wall--well, it could 
be up to 24 months. Many soldiers are called up for 18 months. 
It varies by unit. But once that soldier hits the extent of his 
original set of orders, he was placed then on ADME orders, and 
that is what we have resolved now. They are going to go on to--
--
    Chairman Tom Davis. But some of the people in charge of the 
ADME orders were telling people 30 and 60 days. They just took 
it on themselves, even though the law allows them to do longer. 
That was the testimony.
    Mr. Denning. That is right, sir. That is what we have 
corrected. Soldiers will be put on for longer periods.
    Chairman Tom Davis. Well, why would they do that? I mean, 
what is the rationale?
    Mr. Denning. Well, sir, the ADME process, as I mentioned, 
was designed as a peacetime system for the Reserve Components, 
for soldiers injured during that 2 weeks of active duty every 
year. It was never envisioned as a system to take care of 
soldiers who required long-term medical care.
    Chairman Tom Davis. What do you think about the idea--and I 
am asking all of you--about an ombudsman or case worker or 
somebody who that soldier can call and is the soldier's 
advocate instead of an advocate for ``the system?''
    Mr. Denning. I am open to that. I think we have done a lot 
though with Installation Management Agency----
    Chairman Tom Davis. Well, we have, but I hear--not 
according to the ``Orlando Sentinel.'' There are still people 
falling through the cracks as late as last Sunday. Everything 
is fine, but I am just saying at the end of the day it doesn't 
help that soldier to know that everybody is up there trying and 
that we are getting more people. Just having someone that they 
can call as their advocate, they shouldn't have to call my 
office or Ms. Norton's office, which is what they are doing and 
that is why we are here.
    Mr. Denning. I understand, sir. We are open----
    Chairman Tom Davis. How does everybody feel about an 
ombudsman in a case like that? Are we open to that when there 
is somebody in a situation like that? Assign them an advocate, 
somebody that can walk them through the maze and look out for 
them. These people have taken time away from their families, 
away from their jobs. They have interrupted their careers. Some 
of them come back in body bags.
    Mr. Denning. Yes, sir.
    Chairman Tom Davis. Some of them come back missing limbs. 
The least we could do is, when they come back, have somebody 
there that is going to advocate for them and get them the 
maximum the system allows. We owe them that.
    Mr. Denning. We agree completely, sir. I thought--and I 
will let the other generals speak for themselves--when we set 
up the medical readiness processing units, that is what we 
expected of those platoon sergeants and those leaders in there, 
to assist those soldiers, if they encounter difficulties, to 
help them work through the maze.
    Chairman Tom Davis. Well, let me ask another question while 
I have the brass up here. This is just a yes or no. Can we be 
assured there will be no retaliation against the people who 
testify here today?
    Mr. Denning. Yes, sir.
    General Hagenbeck. Absolutely.
    Chairman Tom Davis. OK. Is that right?
    General Kiley. Yes, sir.
    General Wilson. Yes, sir.
    Mr. Sakowitz. Yes, sir.
    Chairman Tom Davis. They were very nervous. They did not 
want to come forward. They are very respectful of everything 
everybody is doing. If you heard, there is a frustration there. 
We really asked them to, because there is nothing like having 
the victim sit up there and tell the story. We are not trying 
to embarrass, but this is an ongoing problem and I think we all 
agree they deserve better, and I think it helps you act better 
when you see something like that and you are trying to move 
something through. You have to go through lawyers to get stuff 
done, too. You just can't wave a wand and make it happen.
    I think hopefully we are helping you get this job done, as 
well.
    Ms. Norton.
    Mr. Sakowitz. Mr. Denning, did you want me to talk about--
--
    Chairman Tom Davis. Sure. Go ahead.
    Mr. Sakowitz. Sir, what Mr. Denning was referring to is the 
medical retention processing unit, which is fairly new in the 
Army. When the soldiers first came back a couple of years ago 
we didn't even have an Installation Management Agency. Each 
installation decided how to handle their medical holdovers. Now 
we have a standard process with these units that is to do 
pretty much what you just said from an ombudsman standpoint. 
Now, sir, it is not one-to-one. We have established----
    Chairman Tom Davis. Of course not.
    Mr. Sakowitz. We have established a basic military 
structure, company structure. We have a commissioned officer 
with NCOs that we have now especially assigned, which we never 
had before, to handle those particular needs. Sir, there are 
going to be areas where we might miss one or something happens.
    Chairman Tom Davis. Sure.
    Mr. Sakowitz. But in general I would say at those sites 
with the significant medical holdover populations, these units 
who only do that job and are assigned for them and are, in 
fact, Reservists themselves, sir, who we have called up to 
handle this, could answer, I would say, most of the questions 
that you talk about from an ombudsman standpoint and are doing 
that.
    Chairman Tom Davis. Let me ask General Wilson, General 
Helming has expressed deep concerns about the retention rate of 
Army Reservists, and recent reports confirm unmet recruitment 
goals. Do you think that the current administrative problems 
that we are seeing for the injured has contributed to this 
decline?
    General Wilson. I can't directly attribute that 
specifically.
    Chairman Tom Davis. It doesn't help though, obviously.
    General Wilson. It doesn't help, and soldiers have, sir, as 
you are well aware, very strong, informal communication network 
that works very strongly on their behalf. But I think the 
continued force of our leadership to rectify these problems and 
to deal with these issues, more importantly than soldiers, the 
families and the wives have become a strong advocate and a very 
stringent questioning body and query body. So anything we can 
do to deal with the issues that the soldier faces will always 
help us in the area of recruitment and retention.
    Chairman Tom Davis. I think the one thing in the first 
panel that caught me, in a couple of instances where you had--
in one case you had the adjutant general from Oregon, in 
another case you had one of the sergeants that were assigned to 
Walter Reed trying to do things. Someone upstairs--and this 
didn't come from you. I don't think it is in the regulations, 
you know, ``Why are you rocking the boat,'' you know, basically 
saying, ``It is not your problem. Why are you rocking the boat? 
Why are you doing this?'' I understand how that occurs. But at 
the end of the day those kind of advocates really help make 
things go, and we need to get that word to you as quickly as 
possible. The faster the word that something has gone wrong 
gets to you, the better able you are to correct it.
    I think it was in that vein that we called them forward 
today. Do you understand what I am saying? Nobody likes blowing 
a whistle. These guys would go back again if they were able to 
do it. They believe in the mission. They weren't here 
denouncing the administration or the President or anybody else. 
So I think we just need to work together on this, but we are 
going to continue to overlook it, because when you look up 
there and see a chart like this, I can just tell you things 
fall through. Maybe what we need to do is establish and work 
with you to make sure those advocates are in place and working 
and trained to get the right answers for these soldiers who 
deserve that.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I was very pleased to hear your response to the chairman's 
question about ombudsmen. Let me be clear what the word means, 
and then ask you about two examples. An ombudsman has his 
allegiance to the person, not to the system. One of the 
problems with the caseworker system is those people are, of 
course, caught between their obligation to the system, that is 
to the service, and to the service person, as well.
    Do I understand you to say that an ombudsman--and, by the 
way, we don't mean one-to-one in the sense that it would be one 
person for every member of the service, but an ombudsman who 
would have a collection, a set of members. Do I understand your 
answer to the chairman's question to be that you endorse the 
notion of an ombudsman whose allegiance would be to the 
soldier, alone, who would be an advocate for the soldier, who 
might be, therefore, advocating to people within the system and 
not feel that he had responsibility for the system or could be 
penalized for pressing the case of the soldier?
    And, of course, everybody who presses a case has common 
sense on when he has gone as far as he can. Can I understand 
whether you mean a soldier's advocate by the word 
``ombudsman,'' which is the general meaning of the term, not 
some caseworker type person within the system? Did everybody 
have that same understanding?
    Mr. Denning. Ms. Norton, I indicated I am open to that 
idea. I think I would first like to investigate the limitations 
of the medical readiness processing units. As I indicated we 
have NCOs there who this is their job already.
    Chairman Tom Davis. Would the gentlelady yield for just a 
second?
    Ms. Norton. I would be glad to yield.
    Chairman Tom Davis. I think the idea of an ombudsman--you 
can call them whatever you want, but for a soldier, 
particularly one who has been having trouble, whether it is 
getting paid, whether it is medical, there is still a whole 
series of problems. There ought to be a number they can call 
and a person that is assigned to look after them.
    I am not talking about a gripe session. I am not talking 
about they didn't like their orders or they got KP too much. I 
am talking about something related specifically to organized 
benefits--pay, medicine. There ought to be a number and a 
person assigned, and sometimes that person may say, you are all 
wet on this. It is just not going to work.
    But right now they go up through the chain of command, and 
that has just not seemed to work, simply because people in the 
chain have other activities as they see their mission, not that 
they are against the soldier, but they are trained to do other 
things, somebody who's trained to know all the ins and outs of 
the benefit structure, of the pay structure, of the problems 
that can occur, the orders not being cut in time, those kinds 
of things. That is all we are asking.
    Obviously, we are not asking you to sign off on a blanket. 
The concept of that seems to me--I am talking about an injured 
soldier coming back from the war. There is a person that they 
can call on the ground if they have a problem.
    One of the biggest problems we had here was they couldn't 
get orders cut. They didn't know where they were going to live. 
They didn't know what their families were going to do. They 
couldn't get leave. Do you understand what I am saying? That is 
what we are talking about.
    General Hagenbeck. Sir, if I could, we have established 
that inside what we call our ``disabled soldier support 
system.'' It only involves right now about 260 soldiers, and 
those are most seriously wounded soldiers, those that have lost 
limbs, eyesight, have been paralyzed. We have set up an 
office--we have funded it last fiscal year with $4 million. I 
believe it is $7 million for this fiscal year--to be exactly 
what you described.
    So I think we have taken the first step, and I think 
conceptually we are supportive of that, understanding that we 
never want to take away that responsibility that chain of 
command has, that first sergeant company commander that needs 
to work in concert. But we do agree that there has to be 
someone that soldier can go to to cut across the bureaucratic 
lines at some of these stovepipe organizations when he can't 
get resolution.
    Chairman Tom Davis. And you agree that today, the couple of 
situations we heard, that would have helped a lot?
    General Hagenbeck. Absolutely would have helped. Yes, sir.
    Chairman Tom Davis. Yes.
    Ms. Norton. And, of course, the command structure needs all 
the help it can get. I am sure they would be the last people to 
say that they wanted to handle these everyday, run-of-the-mill 
complaints rather than have it go to somebody whose job it was 
to followup.
    I want to just test to see how this would work, because 
let's say that we have countless examples of relatives--wives, 
parents, members of the military who are not able to maneuver 
for themselves, call their Congressman. You really do not want 
Chairman Davis and I to be the advocate. I am sure that is the 
last advocate you need. But that is what happens.
    Chairman Tom Davis. I am not sure they want to answer to 
you.
    Ms. Norton. Exactly. So all we are saying about ombudsman 
is it is in your best interest, as well. But we are very 
worried about what happens to the relatives, because we are 
getting the same kind of terrible, horrific complaints from 
them, being on the phone for hours, being passed from one part 
of the Army to the next part of the Army.
    I wonder if there is a, let's say even for these 200 or so, 
or for any others, if there is a central location or phone 
number where someone who is a relative of the Reserve or 
National Guard can call and get answers to the question about 
the treatment and the Army or about some of the issues that 
have been raised here so that this would not be passed on to 
the already anxious relatives of these members of the service 
to whom they turn when they are not able to get any answer 
themselves.
    General Hagenbeck. If I could answer that initial question, 
we have established an 800 number for what we call ``DS3,'' 
disabled soldier support system. So I think conceptually we 
know how to do that, I mean not just conceptually but in 
concrete terms. But, again we would need to----
    Ms. Norton. That 800 number directs them to where?
    General Hagenbeck. They have a case manager, exactly that, 
an ombudsman who then takes----
    Ms. Norton. Don't call the case manager the ombudsman. We 
have had all kinds of problems with case managers.
    General Hagenbeck. I am perhaps defining it differently 
than you, but the point is that is their go-to person by name 
and who they are. They keep a complete file on them and they 
are responsible for that soldier, and they are responsible for 
being their advocate, whether it is entry into the VA system, 
they are having problems medically, financially, or whatever it 
happens to be.
    Ms. Norton. General Wilson, you had a response?
    General Wilson. Yes. Given much like the Guard, most of our 
soldiers, the overwhelming majority comes from the community, 
itself. Between the Guard and the Reserve there are over 3,000 
local locations that soldiers are mobilized from. In our case, 
we have the Army one source, which is a 24-hour, 7-days-a-week, 
365-day telephonic or web-based source for dealing with the 
full range of issues, from medical and dental benefits, 
training and support to help readjustment and reintegration 
into civilian life and their jobs, reunion and marital 
reintegration with spouse, children, and personal social 
adjustment. The beauty of this program, it is one source. We 
publicize it in all of our family support and our rear 
detachment operation sites. With this program they have a 
benefit of receiving up to seven in-person consultations 
relevant to issues.
    So the Army Reserve and I believe the Army National Guard, 
but I can't answer for sure with that, have the Army one source 
where they can go out and find this type of information or be 
referred to a specific source for support.
    Ms. Norton. Thank you very much.
    Ms. Embrey. Excuse me?
    Ms. Norton. Yes, Secretary Embrey.
    Ms. Embrey. I would like to also add that just 2 weeks ago 
we had a ribbon-cutting ceremony announcing a DOD-wide program 
for the severely injured joint support operations center, and 
the objective of that center is to provide 24/7 access to 
anyone who is unaware of the service specific program so they 
can get information about how to access and resolve their 
problems in navigating. It specifically is designed for the 
injured service member and their families.
    We recognize this is an important emerging issue that 
sometimes information about what is available is not known to 
individuals at the ground level. This is a way in which to have 
DOD-wide access to get that information and to refer to the 
programs that are viable and active in each of the services.
    Ms. Norton. You have to believe these soldiers have e-mail 
and voice mail. They know how to phone home when in trouble.
    I have a very specific question, a concern I have about 
Walter Reed here in the District, where I am told that as of 
January of this year, just this past month, that soldiers being 
held there on medical hold are being compelled to pay for their 
own meals. I need to know if this is true. Enlisted soldiers 
apparently--again, according to the information I have been 
able to get hold of--get $267 in allowances per month to pay 
for meals.
    At Walter Reed, after a soldier has returned from the 
battlefield, the cost would be $450 a month. I would like to 
know is it true that these soldiers on medical hold have to pay 
for their own meals that other soldiers receive free of charge? 
That is a pretty specific question and I need to know yes or no 
if that is the way it works.
    General Kiley. Those medical hold soldiers that are in an 
outpatient status during basic allowance subsistence allowance 
are required, when they use the dining facility at Walter Reed, 
like all the other soldiers assigned to Walter Reed, both 
active duty and Reserve, are required to pay for their meals as 
they go through the food line. They have an option to go on 
separate rations, as I understand it, and give up that $280 a 
month of subsistence allowance, at which time their meals in 
the dining facility are free.
    That is no different than any other hospital----
    Ms. Norton. Wait a minute. Let me understand this. I 
thought that the $267 was for enlisted soldiers to pay for 
their meals, but that at Walter Reed that is not what you got. 
You had to pay for all three meals. Is that not the case?
    General Kiley. If you are an outpatient. If you are an 
inpatient, you are not paying for your meals.
    Ms. Norton. Of course.
    General Kiley. But because if you are----
    Ms. Norton. But you are in a hold company. You are trapped 
there.
    General Kiley. If you are assigned to Walter Reed or if you 
are assigned to the medical holdover unit at Walter Reed in an 
outpatient status, then you are authorized to pay and 
privileges for a soldier that is not living in the barracks and 
having a mess hall to go to, a dining facility to go to. So 
under those circumstances, the Army gives those soldiers money 
to buy their meals at the dining facility, or to buy meals----
    Ms. Norton. So they receive----
    General Kiley [continuing]. Or Burger King or McDonald's.
    Ms. Norton. So this soldier in medical hold receives how 
much money to buy his----
    General Kiley. As far as I understand it, just like every 
other soldier on active duty who is not sick in hospital and 
not on a meal card, which is the Army's way to give them free 
meals--you either get a meal card and you don't get any monthly 
allotment and then you either eat at the mess hall with this 
meal card free, or you have to go find----
    Ms. Norton. So they can get this meal card?
    General Kiley. Yes, ma'am, that is my understanding. That 
is my understanding.
    Ms. Norton. And then they could have three meals a day----
    General Kiley. Free.
    Ms. Norton. Free?
    General Kiley. Yes, ma'am. But when they get the meal card 
they give up the monthly what is called subsistence allowance, 
the----
    Ms. Norton. Wait a minute. The monthly subsistence 
allowance, that is not just for food?
    General Kiley. Yes, ma'am. For food.
    Ms. Norton. So they give up the whole thing then?
    General Kiley. Well, they are getting three meals a day, 30 
days out of the month.
    Ms. Norton. And they are living free of charge on the base, 
is that it?
    General Kiley. Yes, ma'am. They are in the barracks or in 
the hotels.
    Ms. Norton. I see. OK.
    Could I ask you about the--we are interested particularly 
in equal treatment between the Guard, Reserve, and the enlisted 
members. As I understand it, for some of the active duty 
medical extension soldiers prior to this war, for example, in 
Bosnia, the way it works apparently is that some of the injured 
Army Reserve Component soldiers in prior wars like Bosnia used 
the active duty medical expense process, whereas for these 
soldiers you have to apply through the medical retention 
process. Why were they not allowed to use the active duty 
medical expense process, especially since some of the soldiers 
in Bosnia were allowed to do so?
    General Kiley. If I understand----
    Ms. Norton. Why isn't there a single system, in other 
words, no matter what theater of war you are in, you use the 
same process?
    General Kiley. I think the key--and I could be corrected if 
I am wrong, but I think the key in this process, which is where 
the ADME process evolved from, started with soldiers that were 
injured during training. A medical assessment was made of the 
nature and extent of their injury, depending on the 
circumstances under which they were activated, and then a 
decision was made as to how long they would remain on ADME.
    Even during Bosnia, the numbers of soldiers that flowed 
back to continental United States, Reserve and National Guard 
soldiers, was small enough that the administration of the ADME 
process, to include consultation with physicians repetitively, 
was robust enough to handle those relatively small numbers. I 
think what we experienced--and as you know I was at Walter Reed 
from 2002 to 2004 as a commander--the numbers just exploded on 
us.
    And so, in attempting to follow the regulations and 
attempting to be good keepers of the faith, as it relates to 
the law and the regulations, we had to work through this very 
burdensome system, and hence we discovered, frankly, pretty 
early on that soldiers were dropping off. We were hearing this, 
frankly, at morning report at the hospital, and that hold knew 
about it. It was a function of coming to the realization that 
we needed to change the way we were doing business.
    It took us a little while to do it, and I believe by the 
first of March we will have just about everybody off ADME. But 
that is just an older system that served us well when the 
numbers were real small under the circumstances we were 
operating under.
    Ms. Norton. Mr. Denning.
    Mr. Denning. Yes, ma'am. Since the fall of 2003 and the 
Fort Stewart incidents, we all at this table, particularly the 
Surgeon General, have worked--I think ``tirelessly'' may be too 
strong a word, but really hard to ensure that the AC soldiers 
and the RC soldiers were treated absolutely the same, that 
there was no discrimination. In fact, I can sit here before you 
today and tell you that the RC soldiers are treated at least as 
well if not better than their AC counterparts in terms of 
access to the medical care system.
    The Surgeon General has established very specific 
guidelines in terms of waiting time for appointments, priority 
order, to ensure that RC soldiers get the best quality health 
care available.
    Ms. Norton. Ms. Embrey, I just have to ask, the total 
failure of the planning process, so that after troops were in 
there you all began to somehow understand that you would have 
people back here that would be held in companies like the 
company at Walter Reed. What was the flaw in the planning 
process? Did you expect simply to get into, let us say, Iraq 
and get out with almost nobody injured and that would be it?
    You had a long time to plan for this. The discussion on 
whether or not we would go to war had to have gone on for at 
least a year. You had to go back and forth to the United 
Nations. It was very controversial. There was lots of things. I 
mean, why wasn't the planning done there? What was the flaw in 
the planning?
    Was it that you anticipated not having or having almost no 
injuries and therefore didn't plan on having this number of 
Guard and Reserves there? And if so, if that was your thinking, 
on what basis did you believe that you did not have to plan for 
so many injured members of the Guard and Reserve?
    Ms. Embrey. I think I will answer this in a couple of 
different ways. The first is there are a number of factors that 
have contributed to the situation we are in. The first is that 
we organize as units and there are various specializations in a 
unit, and one of the specializations in those units is to 
understand how to navigate the process in your command and 
control structure.
    When we mobilize, especially Guard and Reserve, they go and 
there is a pre-deployment process screening where we try to 
identify those who are not physically or medically ready to 
deploy. There is a certain percentage of those folks that stay 
back, but the rest of the unit goes, along with the expertise 
to help them navigate the process.
    Then, while they are there, those who get injured are, if 
they are severely injured, are medically transported back to 
the States through various points of care, returned to a place 
where their special requirement can best be provided, and again 
their expert that helps them navigate the system from their 
unit is not with them.
    When they return, through a post-deployment process 
individuals identify their concerns, their physical problems. 
They are referred and then taken care of, and some of them end 
up in medical hold. Again, the rest of their unit and the 
expertise to help them navigate the system has gone home.
    That is part of the problem, and I believe that----
    Ms. Norton. Yes, we understand the problem. My question 
was: what was the flaw in the--was this all unforeseeable?
    Ms. Embrey. I don't think it was unforeseeable. I cannot 
speak for the Department on failure to plan. I think there was 
a very good understanding that we were trying to screen 
individuals who would not deploy with medical problems. I think 
we thought that our peacetime structure would be able to handle 
the anticipated casualties. We realized going in that this is a 
marathon, not a sprint, and we are now having to make 
adjustments based on what we are learning.
    Ms. Norton. That is precisely my question. The President 
warned everybody from the beginning of September 11 don't 
expect this to be over soon. I only dated back to when we began 
to discuss going in Iraq.
    Ms. Embrey. Would Congress have agreed to a surge in the 
force structure in order to accommodate these requirements?
    Ms. Norton. Do you for a moment believe that if you had 
come to this committee or to the Armed Services Committee and 
said, we expect real problems to develop because of the number 
of injured soldiers who may be coming home for a system that is 
not equipped to handle them on base, and so they will be held 
in medical hold, do you for a moment believe that Congress 
would have said, go away?
    I mean, you are returning your question to me? We expect 
you to do the planning, come to us, and say, this is a warning, 
everybody. We are not equipped to handle this. It is a question 
of resources. You need to alert us. Are you saying you alerted 
us and we did not respond?
    Ms. Embrey. No.
    Ms. Norton. Well then don't come and tell me, would we have 
responded. The question is why did you not alert not only this 
committee but a number of other committees who first and 
foremost think of the men and women on the ground and then 
think about everybody else? So I can only take yours to be a 
rhetorical question.
    Now, let me finally say--and the reason we ask it, very 
frankly, is that the committee, you know, is really looking for 
remedies. The message we are sending is that we very much 
respect the way the military fights wars. We have not respected 
the way the military has cared for these injured soldiers 
coming home. We don't think that the people on the ground or 
what happens on the ground is broken. I think you will agree 
that this was broken, is being fixed. We have noted the way it 
is being fixed, are appreciative, but because we are involved 
in a longtime conflict the message is plan, plan, plan, just 
like you plan to go to war in some respects and not other 
respects.
    It is absolutely inexcusable not to do the proper planning 
that will help us take care of people who have been injured in 
war. It has been heartbreaking to hear the testimony of these 
soldiers here today, and we just want to make sure the planning 
is done to make sure it doesn't happen again.
    I have only two more questions. We heard testimony from one 
of the prior witnesses, Sergeant Forney, again over a situation 
at Walter Reed where he had to use his own funds to buy 
supplies and equipment. I need to know whether that has been 
entirely cured, why it was that anybody would have been 
responsible for having to do that, why a soldier had to put out 
his own funds. I am not even sure whether he was repaid.
    General Kiley. I have no idea either, Congresswoman.
    Ms. Norton. Well, would you followup on his testimony----
    General Kiley. I certainly will.
    Ms. Norton [continuing]. And report back to this committee 
what you were able to find?
    Final question: I asked the prior panel and was told by 
that panel that you would be the appropriate panel to ask for 
answers to some of the most disturbing testimony about post 
traumatic stress disorder. We are told that it may arise some 
time after, some months, for example, after the soldier is 
back, may linger for some time.
    We wonder whether or not, under your current system and 
regulations, whether or not somebody who suffers from post 
traumatic stress disorder can ever be considered to have a 
disability as described under Army regulations, or, if not, how 
such a person who now must come back to civilian life is 
expected to navigate through the rest of his problem.
    General Kiley. I would be happy to try to answer that 
question. I think it is a very good one, frankly, and the Army 
Medical Department and the Army and, frankly, the Department of 
Defense has taken a great interest in this process. As you 
know, there was an article published recently in the New 
England Journal by one of our medical health care screening 
teams that documented a not insignificant number of soldiers 
who, on a survey, answered that they were having problems, be 
it nightmares, anger, alcohol, or family disturbance issues. We 
recognize that, recognized it in terms of the pre- and post-
deployment screening that we do for every single soldier who 
comes back, both active and Reserve, National Guard. They get a 
face-to-face screen during the demobilization process.
    We have also recognized that process, alone, may not be 
enough--specifically, that soldiers won't admit that they have 
issues, or they think that once they are back at home, they 
demobilize, they are looking forward to getting back with their 
family, that some of the issues they may or may not have been 
worried about are now going to be resolved.
    There is no question that every soldier that mobilizes and 
deploys goes through a traumatic experience just in the 
mobilization and deployment, and then with combat operations it 
can be a significant shock to the system, so to speak. Like 
everything else in human nature, there is a bell-shaped curve 
of resiliency associated with that.
    But we have gotten more sensitive and more aggressive in 
seeking out soldiers and asking them how they are doing. We 
have actually done some followup on soldiers who went through 
the original screening and found that over time they actually 
start to admit and recognize that some of the problems they 
have been struggling with haven't gone away. So we are in the 
process of identifying that systemically and clearly offering 
opportunities for soldiers to come back and see us.
    Just recently, as you probably know, the Secretary directed 
the services to begin a formalized process at the 90- to 180-
day mark to bring soldiers back and screen them, and we are in 
the process of working our way through the policies and the 
resources required to execute that.
    The second part of that is once we have identified soldiers 
that may need counseling or help, it is collating the resources 
to provide that. The mental health communities in general are 
already very busy--psychiatrists, psychologists, social 
workers, and other counselors--and we want to make sure we have 
some place to refer our soldiers, Sailors, Airmen, Marines when 
they do recognize that they have some problems.
    Our experience is that most of those soldiers, almost all 
of them will resolve these issues, particularly with some 
assistance, but PTSD is recognized and I am understood to 
believe that in its most severe forms it is recognized as a 
disability with sort of the PEB system and soldiers do get 
recognition of that, depending on the nature and the extent of 
their symptoms.
    It is often a temporary position that does heal itself over 
time, and so in some cases those soldiers will go into a TDRL 
status and come back in 18 months, and we will sit down with 
them again and see how they are doing.
    We are very sensitive to this. Some of this is an outgrowth 
of the first Gulf war and our work in dealing with and the 
development of the diagnosis of post traumatic stress syndrome.
    I hope that answers your question.
    Ms. Norton. I appreciate your answer, because I could not 
agree more when somebody comes back from war the notion of 
stress, waiting to see whether or not or at least following the 
soldier to see if that stress will develop into some long-term 
problem, that is a close call. As long as you are following the 
soldier, I think we would be satisfied.
    Let me tell you what leads me to ask about disability. When 
you see the number of soldiers--I mean, appalling number--from 
the Viet Nam war that are on the streets homeless, you 
recognize that you never want to see that happen again. I 
realize that was a draft. There may have been many there who 
are very unlikely volunteer soldiers.
    But it has seared itself into the consciousness of Members 
of Congress, because those are people who will call our 
offices, whose families will call our offices, the notion that, 
as difficult as it is to decide whether or not we are dealing 
with something that can truly be called a disability and, hey, 
that is your job as well, as long as that is something that is 
not off the table or impossible to get in appropriate places, 
that would certainly satisfy me.
    I am particularly concerned in the volunteer Army about 
that because one's heart goes out as one hears interviews on 
television members of the service who are asked, well, would 
you go back, or who volunteer that they want to go back. These 
are people who have lost limbs or worse. These are folks who 
have imbibed the notion that they have done a service for their 
country, who say, I have somehow or feel often I have abandoned 
my fellow soldiers, and what I need to do in order to feel 
right about myself is to go right back there and serve as long 
as they serve. That is the psychology one hears over and again.
    I have to tell you I believe the press goes around trying 
to find somebody who will say the opposite, and they just can't 
find people. They all seem to say, I want to go back, or, I 
would go back if I could. That leads me to believe that what 
you just said, General Kiley, is the case. Hey, that is not the 
right thing to say if you are a soldier, that you are feeling 
any pain, that you don't want to go back. Therefore, the 
possibility that these volunteer soldiers who have absorbed the 
notion that they are first and foremost a soldier need to be 
followed very, very carefully, because their reluctance to 
admit is perfectly understandable.
    Finally, in closing this hearing, I want to thank all of 
our witnesses, and I especially thank you. This has been an 
accountability hearing. You can imagine that we feel a very 
special obligation when we continue to hear in our own offices 
about these problems. We know that you have responded to some 
of the problems that have been brought to your attention 
through the GAO and through hearings of this committee, and I 
want you to know that, despite our questioning, we appreciate 
the fact that the Army has been responsive to the committee, 
and we will press you further until we think the system has 
been entirely fixed. That is our obligation. We think you 
believe it is yours.
    Before we adjourn, the chairman has asked me to say that he 
has a request of the Army. As you have done for this committee 
on the issues of the Guard and Reserve pay, he requests 
quarterly briefings to be provided to the committee on the 
state of the medical administrative treatment of Guard and 
Reserve forces. It appears that you have some distance to go to 
improve the oversight, infrastructure, patient service, and 
efficiency of your policies.
    Also, to better address the questions of Reserve Component 
members, their families, and congressional case workers, he 
also asks that the Army takes steps to provide a one-call 
ombudsman office, and, if I may add, described the way we 
described it, differently from the case worker who is torn 
between the system and the soldier--a one call ombudsman office 
where staff trained in all Reserve Component administrative 
issues can answer questions in a timely and comprehensive 
manner.
    We would also like to add that the record will be kept open 
for 2 weeks to allow witnesses to include additional 
information into the record. That includes witnesses from the 
service, witnesses who may be family members, or members of the 
service.
    Again, we thank you for coming.
    The hearing is now adjourned.
    [Note.--The GAO report entitled, ``Military Pay, Gaps in 
Pay and Benefits Create Financial Hardships for Injured Army 
National Guard and Reserve Soldiers,'' is on file with the 
committee.]
    [Whereupon, at 1:40 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Candice S. Miller and Hon. 
Brian Higgins, and additional information submitted for the 
hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T0085.144

[GRAPHIC] [TIFF OMITTED] T0085.145

[GRAPHIC] [TIFF OMITTED] T0085.146

[GRAPHIC] [TIFF OMITTED] T0085.147

[GRAPHIC] [TIFF OMITTED] T0085.148

[GRAPHIC] [TIFF OMITTED] T0085.149

[GRAPHIC] [TIFF OMITTED] T0085.150

[GRAPHIC] [TIFF OMITTED] T0085.151

[GRAPHIC] [TIFF OMITTED] T0085.152

[GRAPHIC] [TIFF OMITTED] T0085.153

[GRAPHIC] [TIFF OMITTED] T0085.154

[GRAPHIC] [TIFF OMITTED] T0085.155

[GRAPHIC] [TIFF OMITTED] T0085.156

[GRAPHIC] [TIFF OMITTED] T0085.158

[GRAPHIC] [TIFF OMITTED] T0085.159

[GRAPHIC] [TIFF OMITTED] T0085.160

[GRAPHIC] [TIFF OMITTED] T0085.161

[GRAPHIC] [TIFF OMITTED] T0085.162

[GRAPHIC] [TIFF OMITTED] T0085.163

[GRAPHIC] [TIFF OMITTED] T0085.164

[GRAPHIC] [TIFF OMITTED] T0085.165

[GRAPHIC] [TIFF OMITTED] T0085.166

[GRAPHIC] [TIFF OMITTED] T0085.167

[GRAPHIC] [TIFF OMITTED] T0085.168

[GRAPHIC] [TIFF OMITTED] T0085.169

[GRAPHIC] [TIFF OMITTED] T0085.170

[GRAPHIC] [TIFF OMITTED] T0085.171

[GRAPHIC] [TIFF OMITTED] T0085.172

[GRAPHIC] [TIFF OMITTED] T0085.173

[GRAPHIC] [TIFF OMITTED] T0085.174

[GRAPHIC] [TIFF OMITTED] T0085.175

[GRAPHIC] [TIFF OMITTED] T0085.176

[GRAPHIC] [TIFF OMITTED] T0085.177

[GRAPHIC] [TIFF OMITTED] T0085.178

[GRAPHIC] [TIFF OMITTED] T0085.179

[GRAPHIC] [TIFF OMITTED] T0085.180

[GRAPHIC] [TIFF OMITTED] T0085.181

[GRAPHIC] [TIFF OMITTED] T0085.182

[GRAPHIC] [TIFF OMITTED] T0085.183

[GRAPHIC] [TIFF OMITTED] T0085.184

[GRAPHIC] [TIFF OMITTED] T0085.185

[GRAPHIC] [TIFF OMITTED] T0085.186

[GRAPHIC] [TIFF OMITTED] T0085.187

[GRAPHIC] [TIFF OMITTED] T0085.188

[GRAPHIC] [TIFF OMITTED] T0085.189

[GRAPHIC] [TIFF OMITTED] T0085.190

[GRAPHIC] [TIFF OMITTED] T0085.191

[GRAPHIC] [TIFF OMITTED] T0085.192

[GRAPHIC] [TIFF OMITTED] T0085.193

[GRAPHIC] [TIFF OMITTED] T0085.194

[GRAPHIC] [TIFF OMITTED] T0085.195

[GRAPHIC] [TIFF OMITTED] T0085.196

[GRAPHIC] [TIFF OMITTED] T0085.197

[GRAPHIC] [TIFF OMITTED] T0085.198

[GRAPHIC] [TIFF OMITTED] T0085.199

[GRAPHIC] [TIFF OMITTED] T0085.200

[GRAPHIC] [TIFF OMITTED] T0085.201

[GRAPHIC] [TIFF OMITTED] T0085.202

[GRAPHIC] [TIFF OMITTED] T0085.203

[GRAPHIC] [TIFF OMITTED] T0085.204

[GRAPHIC] [TIFF OMITTED] T0085.205

[GRAPHIC] [TIFF OMITTED] T0085.206

[GRAPHIC] [TIFF OMITTED] T0085.207

[GRAPHIC] [TIFF OMITTED] T0085.208

[GRAPHIC] [TIFF OMITTED] T0085.209

[GRAPHIC] [TIFF OMITTED] T0085.210

[GRAPHIC] [TIFF OMITTED] T0085.211

[GRAPHIC] [TIFF OMITTED] T0085.212

[GRAPHIC] [TIFF OMITTED] T0085.213

[GRAPHIC] [TIFF OMITTED] T0085.214

[GRAPHIC] [TIFF OMITTED] T0085.215

[GRAPHIC] [TIFF OMITTED] T0085.216

[GRAPHIC] [TIFF OMITTED] T0085.217

[GRAPHIC] [TIFF OMITTED] T0085.218

[GRAPHIC] [TIFF OMITTED] T0085.219

                                 <all>

</pre></body></html>
